<html>
<title> - TRAINING FIRST RESPONDERS INTO THE NEXT CENTURY</title>
<body><pre>[Senate Hearing 106-601]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-601

            TRAINING FIRST RESPONDERS INTO THE NEXT CENTURY

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON YOUTH VIOLENCE

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

    THE TRAINING OF FIRST RESPONDERS SUCH AS POLICE, FIRE FIGHTERS, 
EMERGENCY TECHNICIANS, AND OTHER PROFESSIONALS FOR THE CHALLENGES THEY 
                                  FACE

                               __________

                           FORT MCCLELLAN, AL

                               __________

                             JUNE 11, 1999

                               __________

                          Serial No. J-106-601

                               __________

         Printed for the use of the Committee on the Judiciary


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
69-976                     WASHINGTON : 2000


                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                 ______

                     Subcommittee on Youth Violence

                    JEFF SESSIONS, Alabama, Chairman

BOB SMITH, New Hampshire             JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              HERBERT KOHL, Wisconsin

                       Kristi Lee, Chief Counsel

                 Sheryl Walter, Minority Chief Counsel

                                  (ii)



                            C O N T E N T S

                              ----------                              

                     STATEMENT OF COMMITTEE MEMBER

                                                                   Page

Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     2

                    CHRONOLOGICAL LIST OF WITNESSES

Panel consisting of Robert Knouss, Director, Office of Emergency 
  Preparedness, Department of Health and Human Services; Michael 
  A. Parker, Deputy Commander, Soldier and Biological Chemical 
  Command, Department of Defense; and Curtis H. Straub, Director, 
  Office for State and Local Domestic Preparedness Support, 
  Office of Justice Programs, Department of Justice..............     8
Panel consisting of Darrell Huguchi, deputy fire chief, Los 
  Angeles County, CA and Gary McConnell, director, Georgia 
  Emergency Management Agency....................................    42

                ALPHABETICAL LIST AND MATERIAL SUBMITTED

Higuchi, Darrell: Testimony......................................    42
Knouss, Robert: Testimony........................................     8
McConnell, Gary: Testimony.......................................    44
Parker, Michael A.:
    Testimony....................................................    12
    Prepared statement...........................................    16
Straub, Curtis H.:
    Testimony....................................................    22
    Prepared statement...........................................    23
        Various letters..........................................    27


                            A P P E N D I X
                  Additional Submission for the Record

Nerve Gas Summary for GB/VX by Cliff Bourg, Anniston, AL, dated 
  June 11, 1999..............................51<plus-minus><plus-minus>

 
            TRAINING FIRST RESPONDERS INTO THE NEXT CENTURY

                              ----------                              


                         Friday, June 11, 1999

                               U.S. Senate,
                    Subcommittee on Youth Violence,
                                Committee on the Judiciary,
                                                Fort McClellan, AL.
    The subcommittee met, pursuant to notice, at 9:08 a.m., in 
the Cadwell Auditorium, Building 3181, Fort McClellan, AL, Hon. 
Jeff Sessions (chairman of the subcommittee) presiding.
    Mr. Johnson. Good morning, ladies and gentlemen. Welcome to 
the showplace of the south, Fort McClellan, and specifically 
the Center for Domestic Preparedness.
    We are extremely pleased today to have Senator Sessions 
conducting a field hearing here at Fort McClellan and the 
Center for Domestic Preparedness and we are going to get to the 
hearing in just a moment, but first a couple of administrative 
announcements.
    If you have a requirement for restroom facilities, they are 
out in the hallway to my right front as you go out the rear of 
the building. And also, as we leave this morning head out to 
the live agent facility for a visit with the first responders 
undergoing training; the panelists that are going to be 
testifying this morning and your support staff, please board 
the bus that will be parked outside and transportation will be 
provided to you for the rest of your stay here.
    I need to introduce just for a second if I could--all media 
folks, if you would, please talk with Angie in the back of the 
room there. We have a room set aside for a media event shortly 
after the hearing concludes this morning.
    I would like to recognize some community leaders and guest 
that we have in the audience this morning. First of all, on 
behalf of the Center for Domestic Preparedness, thanks very 
much for your interest and being here with us this morning at 
the hearing.
    First, I would like to introduce to you Dr. Harold McGee, 
president of the Jacksonville State University. Also from 
Jacksonville State University is Dr. Barry Cox.
    Would you please stand when I call your name? And then 
please be seated after that. Thank you very much, Dr. McGee and 
Dr. Cox.
    Dr. Mike Moriarty from Auburn University.
    Also, I would be remiss if I did not introduce his right 
arm and that is Maj. Gen. Ret. Jerry Watson, the former 
commander of Fort McClellan here, who is currently working with 
the Center for Domestic Preparedness along with the Auburn 
Institute on development of a strategic plan.
    Also, Mr. Tim Moore from Auburn University is the director 
of Auburn University's Biological Detection Institute--I think 
I got that right. Anyway, glad to have you here.
    Also, I would like to introduce County Commission Chairman 
Dunn.
    Also, I would like to introduce Mr. Roy Hanna, the chairman 
of the Joint Powers Authority and Mr. Kenny Whitley, the 
executive director of the Joint Powers Authority.
    I also would like to introduce Brig. Gen. Ret. Tom Adams, 
Superintendent of Marion Military Institute.
    Mr. Jerry Powell, a community leader. Thank you, sir.
    Mr. Dwayne Higgins, the president of Anniston-Calhoun 
County Chamber of Commerce.
    Mr. John Blue from Gadsden State Community College.
    And Mr. Ed Miller from the Anniston Water and Sewer Board.
    I tried to catch everyone as you came in and if I happened 
to overlook someone, please identify yourself to me so that we 
can make sure that a proper introduction is made.
    Again, thank you very much for being here this morning and 
I am going to sit down now and Senator Sessions will conduct 
the hearing.
    Again, those of you that are going to be joining us for 
lunch also have been informed, and the bus, once it leaves 
here, will go to the live agent facility and from there on over 
to the McClellan Club for lunch and then the bus will return 
here for you to pick up your vehicles.
    Again, welcome and thank you very much for being here.

 OPENING STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM 
                      THE STATE OF ALABAMA

    Senator Sessions. Thank you very much, L.Z.
    This is a little bit awkward kind of hearing room, but it 
works, I think.
    I really appreciate having the opportunity to know you and 
work with you, our whole staff does and the whole leadership in 
this town, Mayor Stedham, Chairman Dunn and others at the Joint 
Powers Authority, all of you have worked together in a way that 
I think can lead to making Fort McClellan a center of 
excellence for training for the entire Nation for responders to 
chemical weapons attack. I think that is critical for us, I 
hope we can do that and I do not believe there is anyone in the 
country that has done a better job today in getting prepared to 
lead that effort than this center has, and I am real pleased 
with it.
    I have just given a lot of thought and attention to this 
community, as has my staff. We believe it is a great community, 
a tremendous asset to Alabama. We are going to have some 
economic downturn from the closure of Fort McClellan, but there 
are going to be some good things that are coming in behind it. 
And the more we work at that intentionally and the community 
works together effectively, I believe we can continue to build 
the kind of community you cherish and desire.
    I want to tell you how much I have appreciated the 
leadership of Senator Shelby in so many ways. We have been able 
to call on him, he is on the Appropriations Committee, which is 
key at a number of different points. And he has been a real 
asset in everything that we have done for Anniston and for me 
personally. And I want to say that.
    As you know, you have no greater champion than Bob Riley. I 
talked to Bob yesterday, he and Robert Aderholt both hoped to 
come but they are having votes in the House today and they 
could not get out of town. I am very sorry that they could not 
be here, because I wanted them to participate in this. Bob just 
continues to press for the issues that you care about, whether 
it is the bypass or developing Fort McClellan, he is at the 
forefront in all those matters.
    I would like to make a few opening remarks and then 
introduce the panel. We will have some questions and then we 
will have a second panel.
    This is a field hearing of our subcommittee, which is the 
Subcommittee on Youth Violence, but it also has oversight over 
the Office of Justice Programs, and that, of course, is the 
entity within the Department of Justice that will be running 
the center here.
    First responders have been estimated to number five million 
persons. These include police, fire, emergency technicians and 
other professionals. So I want to welcome today's panelists who 
hold key positions in our effort to train and prepare them for 
the challenges they will face.
    The bomb that exploded outside the Murrah Building in 
Oklahoma City took 168 American lives. I am sure all of us 
remember the images of panic, shock, grief, and horror that 
were associated with that incident.
    Elsewhere in the country, we still seek the individual 
responsible for the clinic bombing in Birmingham, which took 
the life of a police officer and permanently crippled a nurse.
    Recently, we have been shocked again by the tragedies which 
occurred in Littleton, CO, and Conyers, GA.
    The pictures of local emergency responders in each instance 
struggling diligently to save lives and protect property are 
vivid and poignant. The seriousness and consequence of these 
events cannot be overstated. We are witnessing massive damage 
and loss of life on a scale never before experienced before 
outside combat. These events, however horrific and unusual, 
were accomplished with so-called conventional weapons. It is 
hard to imagine, but had any of these events included a 
chemical, nuclear or biological weapon of mass destruction, 
each could have been even more catastrophic.
    Chemical, nuclear or biological weapons are not beyond the 
capability of some of the world's terrorists or their 
sponsoring rogue states. It is clear America must be prepared 
to defend itself against such a threat when a weapon of mass 
destruction event occurs. They must respond efficiently and 
effectively with required resources.
    One of the major difficulties faced by local jurisdictions 
is the large number of layered bureaucracies involved in 
responding to a crisis. What many people may not realize is 
that numerous Federal, State and local agencies will be called 
upon to perform individual functions in the aftermath of an 
incident. Accordingly, successful coordination and management 
is absolutely critical.
    Several weeks ago, this subcommittee and the Subcommittee 
on Technology, Terrorism and Government Information held a 
joint hearing on domestic preparedness, the next millennium. 
This hearing, chaired by Senator John Kyl and myself, examined 
the Administration's plan to train and equip first responders. 
Most panelists on that day noted that America is vulnerable to 
attack and more than once they said the question is not whether 
it will occur, but when.
    Barbara Martinez, an agent with the FBI now assigned to the 
National Domestic Preparedness Office stated in her testimony 
that over 40 agencies could have a role in the preparation and 
response to a true terrorist attack. Because of the number of 
agencies involved, Ms. Martinez described the coordinating role 
that the new National Domestic Preparedness Office, a new 
office that has been created, and I think probably necessarily, 
will play. It is unfortunate that the Director, Mr. Tom Kuker, 
whom we expected to be here today, is caught in a plane problem 
in Oklahoma and could not make it in today. So we will be 
missing him but we will continue to coordinate with him.
    Witnesses representing National Associations for Fire 
Chiefs, Sheriffs and Emergency Technicians all testified that 
due to complex bureaucracy and the numerous agencies involved, 
a Federal agency which could provide fast and effective one-
stop shopping would help fill a need that currently exists. 
Although the NDPO is new, I sincerely hope it has been 
adequately staffed and resourced to meet the needs of our local 
first responders.
    During the last subcommittee hearing, it became clear 
America may be fooling herself that we are currently prepared 
to handle such an event. Sheriff Patrick Sullivan, Arapaho 
County, CO--and this was the day of the Columbine shooting--
Sheriff Sullivan was testifying when we got the news. You did 
not see him on television, Columbine High School is the edge of 
his county. He testified that,

          While others may be reluctant to say so, I will tell 
        you that America is not ready to meet this challenge. 
        As such, we are not prepared to handle the crisis and 
        the mass casualties that would occur, God forbid, if 
        there should ever be a chemical or biological release 
        in a major American city.

    Mr. Charles Cragin, Acting Secretary of Defense Reserve 
Affairs, last year before the House Committee said,

          Should a weapon of mass destruction actually be used, 
        responders, be they local, State or Federal, civilian 
        or military, will confront unique and daunting 
        challenges. These rescue and medical personnel will 
        need to perform their mission without themselves 
        becoming casualties.

    This point, I might add, is of great concern to me. During 
Mr. Cragin's more recent testimony, he said,

          As a Nation, we are also facing the fact that the 
        front lines in the war against terrorism are no longer 
        overseas, they are right here at home. Hence, the 
        challenges faced by communities and responders include 
        an unknown danger in containing the impact of the 
        attack, providing medical assistance throughout the 
        system, investigating the nature of the attack while 
        simultaneously protecting the evidence, and finally the 
        restoration of normalcy to the community as quickly as 
        possible.

    A significant portion of the funding for domestic 
preparedness will pass through the OJP, Department of Justice. 
This year, our Youth Violence Committee's jurisdiction was 
expanded to include Office of Justice Programs and I expect 
that we will be spending a good bit of time exercising 
oversight responsibilities in attempting to help them as they 
develop this program.
    Any effective national domestic preparedness policies, as I 
am sure the President and Attorney General Reno realize must 
fully integrate all aspects of response to a weapon of mass 
destruction attack to ensure interoperability. In addition, the 
national effort must provide guidance for planning, training, 
exercising and equipping the first responders. State and local 
officials must be provided with the best training, equipment 
and information so that if a crisis occurs, front line 
responders can assess the immediate needs, take action to 
protect themselves and the public from further harm.
    Modeling done by a company outside of Washington suggests, 
for example, that anthrax aerosol spray released in and around 
Reagan National Airport might result in over 250,000 casualties 
with 10 percent of those fatal. This danger is real.
    To prepare State and local communities for such an 
unfortunate incident, a heavy emphasis for preparation must be 
placed on preparing those communities. I would define first 
responders as local fire, law enforcement, medical workers, 
emergency management officials and public officials who will be 
the first on the scene. It will fall to these people to assess 
the damage, treat those injured, keep casualties to a minimum 
and stabilize the infrastructure.
    Under the Federal response plan, the FBI, FEMA, Federal 
Emergency Management Association, and other Federal agencies 
will assume many duties to help. However, State and local 
officials will have the initial responsibility.
    To this end, I might also point out that local medical 
facilities must also have a trained cadre who can function 
around contaminated casualties. And I think Dr. Knouss from the 
Public Health Service, who will be testifying here today, will 
be able to shed some light on that challenge and his plans.
    We have seen through the implementation of Presidential 
Directive 62 the establishment of the National Coordinator for 
Security, Infrastructure Protection and Counter-Terrorism 
headed by Mr. Dick Clark, which will oversee the national 
counterterrorism effort. Mr. Clark, with whom I recently met in 
Washington, has now established a weapons of national 
destruction preparedness group. The only thing that is making 
me nervous in all this effort is how many groups and agencies 
we have got trying to coordinate. We need a coordinator and I 
was impressed with Mr. Clark and hope that he can make sure we 
are working together and not competing with one another, as we 
strive to build our proper response.
    For too long, we have failed to begin to train and act. We 
have got to coordinate policy immediately to involve Federal 
assistance and local jurisdiction. We have got to have research 
and development. We have got to have equipment development--
that is extremely important. We have got to know the equipment 
that we provide will work, that it is the best possible 
equipment and we have got to make sure that every agency that 
needs it, has it.
    Any failure to integrate all our critical activities of 
research and development will cost us money and increase risk. 
We have got to protect those responders with the best possible 
clothing and diagnostic equipment we can provide.
    A second area of concern is interoperability, which 
includes the need for compatible communication systems. We 
found in the Columbine High School incident that that was a 
serious problem for them and it undermined their ability to 
respond.
    A third area of concern involves a need for timely 
information exchange. The National Preparedness Office in 
association with the FBI, has implemented a policy whereby 
communities and their responders may acquire information to 
assist in preparedness. For too long, agencies did not have or 
did not share information with the local communities to aid 
them in updating their threat and vulnerability assessments. In 
the current environment that we find ourselves, this is a must.
    Civic leaders across Alabama, for instance, need access to 
pertinent information which aids them in their decisionmaking. 
Using Fort McClellan's teleconferencing center by DOJ personnel 
may be one resource, another possibility might include a 
special Center for Domestic Preparedness web page along with 
applicable hotlines and correspondence packages and the like.
    A fourth area of concern involves the equipment. I am 
gravely concerned about the equipment. As I mentioned, we have 
got to make sure that we have the best equipment. The military 
has proven equipment, but we have got to go beyond that and 
make sure that the equipment is compatible and effective for 
local communication.
    A fifth area of concern involves training. In response to 
the needs of State and local governments, President Clinton has 
stated that over 1.4 billion will be dedicated to this effort 
over a period of years. Domestic preparedness training, only if 
conducted properly and efficiently, will save lives in the 
event of a terrorist attack. The framework for training and 
equipping first responders is currently in place and while I 
share the fear of others who argue that it is not moving along 
fast enough, I do believe that Congress and the Administration 
has an obligation to examine our training capabilities to make 
sure that we are not just throwing money at the problem, that 
we are going to make it work, and that the training is quality 
training.
    There presently exists some 140 domestic preparedness 
training courses in America. Some of these are done through 
DOD, FEMA, Department of Justice, Public Health Service, 
Environmental Protection Agency, Department of Energy and other 
agencies, as well as State universities and colleges. As a 
result a lot has been said about integrating these programs 
with good national standards, but we are not there yet--in my 
opinion we are far from where we ought to be.
    Consequently, so the government needs to quit studying 
now--we have done that enough. We need to start producing 
effective training so that people in our communities are ready 
to respond.
    A little closer to home, I want to mention the Department 
of Justice program at Fort McClellan and L.Z.'s efforts. Fort 
McClellan was designated as the Department of Justice's Federal 
Center for Domestic Preparedness and as such the center 
develops and delivers training under a tiered concept that 
offers basic through advanced courses. Each course includes a 
hands-on type exercise, requiring students to perform their 
duties in a weapons of mass destruction environment, including 
forcing them to face actual nerve agents.
    During the August 1998 Attorney General Stakeholders' 
Forum, Attorney General Reno was told by first responders that 
live agent training at Fort McClellan, which I am going to 
invite our panelists to visit after the hearing, this facility 
with me was an absolute necessity. The Center has trained over 
1000 responders and is capable of training up to 10,000 per 
year. This is the goal that we must attain. Their courses are 
currently full through September 30. I have learned that during 
this time the Department of Justice will train an additional 
550 students. Demand is high. There are now waiting lists of 
850 who would like to sign up for courses. The training 
conducted by the Center is a type and quality that we must 
provide--excellence in training will save lives.
    L.Z. received this e-mail from Lieutenant Jake Shirt of the 
Arapaho, Colorado Police Department, who was involved in the 
Columbine shooting, after having been trained here. This is 
what he wrote,

          I wanted to let you know that the advanced operations 
        training I received in April at the CDP was of benefit. 
        While not directly involved in the first day of the 
        Columbine High School shooting, I was subsequently 
        asked to set up large teams of officers to bomb sweep 
        12 schools. The ICS incident command training was of 
        great benefit in assisting me to set up those events. 
        Thank you again for the outstanding training program.

That is direct evidence that this kind of training is valuable. 
You have got to know how to respond under those circumstances.

    I would also suggest that maybe we expand our thinking and 
consider training of this kind for schools, principals, 
superintendents and others because they are often even quicker 
to respond than others.
    In conclusion, I believe that establishing the Center for 
Domestic Preparedness here at Fort McClellan has proved to be a 
great step in establishing a model for training. As our hearing 
established, it is important that all training for first 
responders has well defined standards and training plans. It 
would not serve any purpose to have several different training 
centers across the country offering incompatible instruction. 
We do not want our communities to think they are prepared, we 
want them to be prepared. A well-defined standard along with 
equipment and training, permits follow-up inspections and 
effective evaluation. If there are no standards by which to 
measure and judge the quality of equipment and training, then 
there is no possible way to judge the level of preparedness.
    The Department of Justice, now has an opportunity that has 
not presented itself before to ensure that we have a 
coordinated procedure of training, equipment exercises, 
research, and development that can help us achieve the goal we 
all seek. That goal is having prepared communities.
    I am delighted that we have this outstanding panel with us 
today; I look forward to hearing their comments and testimony 
and asking questions as we go forward.
    Let me begin by introducing our first panel. Dr. Robert 
Knouss is the director of Emergency Preparedness for the U.S. 
Public Health Service. He has been to Fort McClellan previously 
and I am glad to have him back. He is actively involved in 
development of the medical training program in coordination 
with the Center here. He is a key individual in the 
establishment of training for the metropolitan strike teams.
    Mike Parker is Deputy Commander of the Soldier and 
Biological Chemical Command at Aberdeen Proving Ground. He will 
be providing us insight from the military side.
    Butch Straub is director of the Office for State and Local 
Domestic Preparedness Support of OJP, Office of Justice 
Programs. Laurie Robinson, who has been here previously, 
planned to be here today, but could not make it. At any rate, 
we are glad to have Butch here--he has been working intensely 
on that.
    That will be our first panel. Dr. Knouss, do you want to 
lead off? Do you have any comments?

    PANEL CONSISTING OF ROBERT KNOUSS, DIRECTOR, OFFICE OF 
    EMERGENCY PREPAREDNESS, DEPARTMENT OF HEALTH AND HUMAN 
  SERVICES; MICHAEL A. PARKER, DEPUTY COMMANDER, SOLDIER AND 
BIOLOGICAL CHEMICAL COMMAND, DEPARTMENT OF DEFENSE; AND CURTIS 
   H. STRAUB, DIRECTOR, OFFICE FOR STATE AND LOCAL DOMESTIC 
PREPAREDNESS SUPPORT, OFFICE OF JUSTICE PROGRAMS, DEPARTMENT OF 
                            JUSTICE

                   STATEMENT OF ROBERT KNOUSS

    Mr. Knouss. Thank you very much, Senator Sessions.
    Mr. Chairman, it is a great pleasure for us to be here and 
I am accompanied today by Dr. Jarrett Clinton, who is the 
Regional Health Administrator for this Region IV within our 
Department, located in Atlanta and he will be responsible for 
activities here at Fort McClellan, out of the Regional Office 
in Atlanta. Eventually, I hope that we will have some people 
who are directly stationed at Fort McClellan, but under his 
able leadership.
    I would like to spend just a few minutes, with your 
permission, Senator, discussing a little bit about what we are 
doing in our Department in terms of domestic preparedness and 
the activities that we have undertaken.
    The Secretary of Health and Human Services, headed by the 
Hon. Donna Shalala, is committed to developing a strong local, 
State and Federal capacity to respond to the health 
consequences of a terrorist attack, particularly one using 
chemical or biological weapons of mass destruction.
    Under our Department's operating plan for this fiscal year, 
the Centers for Disease Control and Prevention is supporting 
State and local governments in strengthening their 
surveillance, epidemiological investigation and laboratory 
identification capabilities as well as initiating a national 
stockpile of critical pharmaceuticals and vaccines to 
supplement local and State resources, if needed.
    The National Institutes of Health is increasing its 
research related to protecting against bioterrorism and our 
office, the Office of Emergency Preparedness, is expanding the 
development of local emergency health system capabilities to 
respond to the health consequences of a WMD attack.
    We focus much of our attention in our office on local 
preparedness because the first response to any immediately 
evident terrorist incident in the United States will be with 
community-based resources supplemented by State and Federal 
assistance. Therefore, local capability and capacity building 
are absolutely crucial for reducing morbidity and mortality 
caused by these types of attacks.
    The critical issue is preparedness, which includes 
developing and strengthening community response plans and 
operational capabilities. The effectiveness of the integration 
of the capabilities of all levels of government will determine 
the success or failure of our Nation's ability to respond to a 
major terrorist attack.
    Just as a little bit of background, our office coordinates 
the health and medical emergency preparedness activities within 
the Department of Health and Human Services and is the lead 
organization to coordinate disaster and emergency health 
response activities with other Federal agencies, including the 
Department of Justice, the Department of Defense and with the 
Federal Emergency Management Agency.
    During a federally declared disaster, HHS is the primary 
agency that provides the health and medical response known as 
emergency support function number eight under the Federal 
response plan. We also manage the national disaster medical 
system, which is known as NDMS. It is a partnership between 
Health and Human Services, the Departments of Veterans' Affairs 
and Defense and FEMA, and really is a remarkable system. I call 
this, at times, the country's largest volunteer fire 
department. And the reason for that is that we have 7,000 
private citizens across the country who volunteer their time 
and expertise as members of response teams to provide primary 
medical and certain types of specialized care to disaster 
victims, and more than 2,000 participating non-Federal 
hospitals.
    Our response capability is organized into teams such as 
primary care; disaster medical assistance teams; specialty 
medical teams, for example those that concentrate on pediatrics 
or burn care; and disaster mortuary teams. We have 25 level one 
DMAT's, including one that is located here in Alabama--
headquartered in Birmingham, which we are very proud of and 
which I think every State that has one or more of these teams 
should be proud of. They can be federalized to deploy within 
hours, they can be self-sufficient at a disaster scene for 72 
hours, providing on-site medical services. This means that they 
carry their own pharmaceutical and medical supplies, food and 
water, shelter and communication and other mission essential 
equipment. These teams have been sent to many areas in the 
aftermath of disasters, in support of FEMA-coordinated response 
activities.
    Our mortuary teams can assist local medical examiners to 
identify and deal appropriately with the remains of those who 
do not survive major disasters or in the aftermath of airline 
and other transportation accidents when requested by the 
National Transportation Safety Board. Just recently we deployed 
that team, for example, again in Oklahoma City as a consequence 
of the horrible tornadoes that swept through that State and 
several other States in the midwest.
    To make maximum use of these resources, we also allow State 
governments to activate the national teams that are based in 
their own States if necessary.
    Over the last 2 years, we have provided additional training 
and specialized equipment to three of our DMAT's to develop the 
required capabilities to respond to terrorist attacks. We call 
them national medical response teams. These teams, which are 
located in North Carolina, Colorado and California, are capable 
of rapidly deploying to an incident site and providing medical 
treatment after the release of a chemical or biological weapon. 
They can respond with a cache of specialized pharmaceuticals, 
each one of them to treat up to 5,000 people exposed to a 
chemical weapon. They also have specialized personal protective 
equipment, detection devices and patient decontamination 
capabilities.
    A fourth team, actually the prototype team, is located in 
Washington, DC, and remains locally to respond in our Nation's 
Capital. It was prepositioned to respond should the need have 
arisen during several State of the Union Addresses--located in 
the U.S. Capitol, the 1997 Inauguration and most recently 
during the celebration of the 50th anniversary of NATO.
    Senator Sessions. I am glad you are worrying about those 
events. The only time I have ever thought much about security 
was there at the inauguration when I noticed that everybody in 
the whole government was sitting right there. It makes you 
think about the possibilities that could happen. The State of 
the Union Address also makes you think about things, as well.
    Anyway, sorry to interrupt you.
    Mr. Knouss. Those were precisely our concerns as well, and 
we have joined with the Capitol Police to respond to that 
potential.
    Several years ago, our Department realized the Nation was 
not prepared to deal with the health effects of terrorism and 
that should a terrorist event occur, our cities and 
metropolitan areas would bear the brunt of coping with its 
effects. In addition, we realized that local medical 
communities would be faced with severe problems, including the 
possibility of contaminating major healthcare institutions, 
overloading hospital capabilities and threatening the safety of 
medical personnel.
    Consequently, in fiscal year 1995, we began developing the 
first prototype metropolitan medical response system in 
partnership with the Metropolitan Washington Council of 
Governments and its 18 local member jurisdictions. This system, 
primarily designed to respond to a chemical attack, became the 
prototype of response for capabilities that we developed in 
Atlanta in 1996 in preparation for the Centennial Olympic 
Games, and for the 25 local systems that we began developing in 
1997 as part of the domestic preparedness program stimulated by 
Senators Nunn, Lugar, and Domenici.
    This year, we expect to begin an additional 20 systems in 
addition to supplementing the initial metropolitan systems in 
order to respond to biological terrorism. These systems 
activities are HHS's highest priority in helping the Nation to 
prepare to cope with the effects of terrorist acts.
    Once an immediately evident terrorist incident occurs, 
local first responders, police and fire and emergency medical 
services, would respond. HAZMAT teams would be called to 
provide agent identification and hot zone rescue management. 
These actions would have been the focus of DOD and FEMA under 
the domestic preparedness program.
    The purpose of the NMRS is to ensure that a metropolitan 
area's health system is able to cope with the human health 
consequences that can result from a terrorist act. Because each 
city has a public safety and public health system with unique 
characteristics, our system development contracts--our NMRS 
development contracts, excuse me--emphasize that each 
metropolitan area will develop its enhanced medical and health 
response system within its current emergency response 
structure. These systems provide an integrated prehospital, 
hospital and public health response capability in local 
jurisdictions. Each system must ensure that health workers be 
able to recognize WMD injuries, know the proper treatment, be 
able to ensure that medical facilities maintain their 
functional capacities and plan the integration of State and 
Federal responders when they arrive. Our goal is to develop 120 
of these medical response systems in the largest metropolitan 
areas across the country.
    In regard to our training activities which brings us 
specifically to the point of these field hearings, our primary 
focus has been on the development of these metropolitan medical 
response systems with the components of metropolitan-based 
systems that would provide decontamination, triage and 
definitive medical care. While DOD, DOJ, FEMA and other Federal 
agencies are providing first responder awareness training, 
there has been little focus on the preparation of healthcare 
delivery systems and their health professionals, those being 
the doctors and nurses and paramedics. Therefore, we have begun 
developing the health professions curricula that are necessary 
to prepare the Nation's emergency medical response personnel to 
meet this challenge. The American College of Emergency 
Physicians along with the American Nurses' Association and 
other health professional groups, are developing with our 
support the competency objectives that are needed for training 
and testing of these critical types of health profession 
responders. We are also seeking to address the standards used 
by hospitals for assuring the maintenance of their functional 
capacity during a WMD event in their communities.
    In this fiscal year, Congress appropriated $3 million to 
our Department for renovation and modernization of the Nobel 
Army Hospital here at Fort McClellan. DOJ's Center for Domestic 
Preparedness is currently establishing a national training 
center, which you are certainly well aware of, for first 
responders to domestic terrorist acts, to address the training 
needs of law enforcement, fire fighting, emergency medical and 
emergency communications personnel, among others.
    First responders need to be trained in the administration 
of the antidotes and other hot zone medically related 
activities in addition to triage and primary care at the scene. 
Paramedics need to be trained about the care required during 
transportation. Hospital administrators need to be trained in 
the preparation of hospitals for safety and protection of their 
operations during an incident. And health professionals need to 
be trained in appropriate and essential emergency and longer 
term care.
    And I want to just emphasize that we are working very 
closely with the Office of Justice Programs to enhance the 
availability of medically related training for all first 
responders, and I particularly want to thank--this gives me an 
opportunity to thank Mr. L.Z. Johnson for all the support that 
he has given to us in this dialog that we have been having of 
developing these programs here at Fort McClellan.
    In summary, HHS is committed to assuring that communities 
across the country are prepared to respond to the health 
consequences of a WMD event. We are prepared to quickly 
mobilize the health professionals and systems required to 
respond to a disaster anywhere in the United States and its 
territories and to assist local medical response systems in 
dealing with the extraordinary conditions that would be created 
by a WMD attack, and we are certain that the program we are 
about to engage in here at Fort McClellan can make a very 
significant contribution to those efforts.
    Mr. Chairman, that concludes my remarks and I would be 
pleased to answer any questions you may have. Thank you again 
for the opportunity to appear.
    Senator Sessions. Thank you, Dr. Knouss. Mr. Parker.

                 STATEMENT OF MICHAEL A. PARKER

    Mr. Parker. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before this subcommittee. It is really 
always great to return here to Fort McClellan, especially on 
this occasion, to be able to see firsthand how Fort McClellan 
and the surrounding communities continue to apply their 
expertise in chem bio defense now in our homelands defense.
    Senator Sessions. Let me ask a question. Can people hear in 
the back? OK, good, the microphone is working. Go ahead.
    Mr. Parker. It really again demonstrates its value, 
critical value, to our Nation.
    I would like to request your permission to submit extended 
remarks for the record and do a quick summary.
    Senator Sessions. That will be fine and we will make those 
a part of the record.
    Mr. Parker. My purpose this morning before you is to update 
you on the progress of the domestic preparedness program, at 
least the portion that the Department of Defense is responsible 
for, and our plan to transition the leadership to the 
interagency program which will now be headed by the Department 
of Justice.
    In addition, I would like to take the opportunity to 
describe some of the support we believe that the Department of 
Defense can provide to the Department of Justice as they 
continue to mature the domestic preparedness program to deal 
with weapons of mass destruction.
    As of this date, we, as the interagency team, that is the 
Department of Defense, the Department of Justice and the 
Federal Emergency Management Agency, Health and Human Services, 
Department of Energy and other Federal agencies, have trained 
59 communities. By the end of this fiscal year, we will have 
trained 65. We have plans to complete an additional 36 in 
fiscal year 2000 and will complete the last 19 for a total of 
120 cities, by about midyear fiscal 2001. A list of the cities 
and their status is contained in the written submission.
    To date, we have trained approximately 17,000 first 
responders, drawn from the fire-fighting, law enforcement, 
hazardous materials handlers, emergency medical, emergency 
management and the 911 operator/dispatcher communities. I must 
remark that these personnel have been absolutely professional 
to the highest level throughout this training program.
    This community-given training, equipment and exercise to 
standards will be able to respond and meet your challenge that 
you stated earlier of being prepared. It is our obligation at 
the Federal level to assist the local communities to meet those 
standards.
    In our efforts, we have employed a train-the-trainer 
concept in our efforts. There are several reasons for this 
approach, one of which you touched on in your opening remarks. 
There are literally hundreds of thousands of initial first 
responders and when extended through the complete community, 
including the medical community, there literally are millions 
of people involved. In order to reach this community in a 
practical manner, we determined that to use the existing 
training infrastructure was the only practical timely manner 
approach to take to deal with these communities.
    The second aspect, Dr. Knouss touched on this as well, is 
each of these communities has a unique element. They have built 
a very effective response capability around their unique 
circumstance, their infrastructure, the challenges that face 
them, how they interface on a regional basis and many other 
factors. So it is important that the Federal efforts are 
tailored to fit within the communities' needs vice a top-down 
driven approach. So training the trainers inculcates into the 
local community's culture the aspects of chem bio defense and 
nuclear response that we are trying to provide to the first 
responder community.
    This approach, as I touched on, generates a real 
partnership by inducting the Federal efforts into the local 
efforts where we knit together then a Federal, State and local 
partnership in preparing a true domestically prepared and 
responsive local community.
    Another aspect of our training is a team approach where we 
have taken a member from the interagency training team and 
paired that person with somebody from the local community. Many 
of these local community personnel, because of military 
training, already have some insight into weapons of mass 
destruction. So by teaming a person from the Federal 
interagency effort, the DOD effort, with someone from the local 
community and putting these people on the podium to do the 
training, we have felt a much stronger sense with the local 
community of acceptance because they see someone from their own 
community participating in the training. It has led to a much 
more meaningful dialog and interchange at that level.
    In previous testimony before Congress, we cited the fact 
that skills learned in this area are very perishable. This is 
further compounded by the fact that there are constant 
personnel turnover. So the area of sustainment, training 
sustainment, is a very, very critical issue. There are a number 
of initiatives that have been taken to address this area. One 
such initiative is the establishment of the Fort McClellan 
Center for Domestic Preparedness here at Fort McClellan.
    DOJ has taken the leadership to establish this center, to 
build the necessary long-term training environment that will 
not only prepare our local communities, but sustain them in 
that level of preparedness as long as this threat is offered to 
our country.
    One of the aspects that we have learned out of a Department 
of Army Federal emergency management program called the 
Chemical Stockpile Emergency Preparedness Program, is that you 
do need to address an overarching strategy from which you can 
then build a training strategy, an equipping strategy and an 
exercise strategy, all built around standards by which to 
measure the attainment; in this case, the attainment of real 
preparedness. I think it relates earlier in your remarks that 
it is a very critical component of the program and would 
suggest that the Department of Justice especially here at the 
Center for Domestic Preparedness, that the efforts that have 
been initiated on these strategies and national standards 
development is something that must be pursued in order to 
really have a prepared domestic first response community.
    We have offered to the Department of Justice, especially as 
it relates to the Center for Domestic Preparedness here at Fort 
McClellan, DOJ and DOA, Department of Army, have entered into a 
support agreement where the Department of Army has agreed, as 
we have been directed by the Secretary of Defense, to provide 
the support to continue the operations here at the Center that 
build on prior activities at Fort McClellan, specifically the 
agent training facility referenced earlier, and any other 
technical support that Department of Justice would desire. That 
agreement is in place and we are fine-tuning it and we have 
built, I believe, a very strong relationship with L.Z. Johnson 
here at the Center.
    We are also involved in the Department of Defense's efforts 
to prepare another element of the domestic response support 
community. That is the Consequence Management Program 
Integration Office, which is preparing the National Guard 
elements to underpin State and local response in the event of a 
weapons of mass destruction incident. The Army's efforts and my 
command's efforts, have been focused primarily on the 
equipment, evaluation, characterization, equipping of the 
National Guard units and providing various levels of technical 
expertise in the area of chemical and biological agents, and 
certain facets of training that we have learned through the 
domestic preparedness program.
    The elements are primarily in the National Guard, although 
there are a few Army Reserve component units as well involved 
in this. There are approximately 10 military support 
detachments also known as the rapid assessment and initial 
detection detachments, or RAID units, ten of which will be 
regionalized across the country. These will be underpinned by 
44 additional RAID-like detachments which will underpin any 
consequence management activity or support during the critical 
incident phase.
    Additional units have been designated, 43 reconnaissance 
elements as well as 127 domestic response casualty 
decontamination elements, which will be available to the local 
communities to call upon through the State National Guard 
command and control structure. These units, because they are 
moving out of a traditional military role into a domestic 
preparedness role, require certain equipment that is tailored 
then to this domestic environment. We are using a performance-
based approach to look at not only military equipment which is 
already qualified to operate in these environments, but also to 
tap into new emerging technologies that are either a domestic 
commercial or a military research lab product or commercial 
technologies that are already on the shelf. We are providing 
the technical evaluation and will feed those into the various 
National Guard elements as those are qualified.
    We will also evaluate some of the considerations that you 
touched on earlier, the command and control, the ability for 
the communications system to cross a wide spectrum of equipment 
that is already in the field is one of the elements that the 
National Guard units have recognized, and we are assisting in 
building communications vans with the ability to cross multiple 
frequencies so that the National Guard elements can provide 
assistance for the local authorities in bringing the 
communications together so that there is really connectivity 
across many, many of the elements that lack that as we stand 
today.
    Senator Sessions. Mr. Parker, I would just note that the 
Senate Armed Services Committee did add some money for that--I 
think there will be 17 new teams approved under our proposal. 
Additionally, I think the National Guard has a critical role to 
play and I appreciate that.
    We are dealing with time constraints so if you can wrap up 
then we'll let Mr. Straub speak. Then we will hear from the 
second panel.
    Mr. Parker. Yes, sir.
    One of the comments that I think needs to be passed to the 
Committee is one that has to do with equipping. We have--the 
domestic communities that we have interfaced with have really 
appreciated and been very laudatory towards the training 
provided. But a common thread that comes back from every 
community is that they need the equipment in order to be able 
to respond and utilize the training. We have mitigated this to 
some degree by DOD providing equipment training packages which 
we leave behind as we complete the training of a city. That is 
really an equipment package that's focused on training.
    To move beyond and fully equip the communities, the 
Department of Justice effort with the Department of Army would 
like to provide technical support to, would characterize 
equipment and then through Department of Justice's grant 
authority significantly streamline and enhance the efficiency 
of providing equipment to the local first responders--a very 
critical element.
    I think I could just maybe step to the latter part and talk 
about our final transition of leadership from Department of 
Defense to Department of Justice. We are--we do have agreement 
at the departmental levels, the Department of Justice and 
Department of Defense came together and Department of Justice 
will be assuming responsibility as the lead Federal agency for 
this domestic preparedness. We have been instructed by our 
Secretary, Mr. Cohen, and the Deputy Secretary of Defense, Dr. 
Hamry, to fully support the Department of Justice in any manner 
that they need. Our leadership in the Department of Army, 
Secretary Caldera, has noted that the Army has over 82 years of 
experience in the chem bio defense area and we literally have 
invested billions and billions of the taxpayers' dollars in 
generating this infrastructure and this expertise, and it is 
our obligation in the Army to provide support to Justice in 
this domestic preparedness effort. Whatever they need, whenever 
they need it, we are a full supporting partner.
    We are looking for a formal transition about October 1, 
2000 and we will be proceeding across fiscal year 2000 and 
actually we already have, to implementing the details, the 
necessary transition steps so there will be a smooth, 
transparent transition and the domestic authorities who are the 
beneficiaries of this program will see us at the Federal level 
move in an absolutely transparent cross over from Defense to 
Justice.
    With that, I thank you, sir, for the opportunity to present 
today.
    [The prepared statement of Mr. Parker follows:]

                Prepared Statement of Michael A. Parker

    Thank you, Mr. Chairman. I appreciate this, opportunity to appear 
before the subcommittee.
    I am Michael Parker, Deputy to the Commander, Soldier and 
Biological Chemical Command. My purpose in testifying here today is to 
update you on the progress of the domestic preparedness program and the 
plan to transition lead responsibility for this interagency program to 
the Department of Justice. In addition I would like to take this 
opportunity to describe the types of support we can render to the 
Department of Justice as they continue to address the challenges posed 
by Weapons of Mass Destruction (WMD).
    As of this date, we, the interagency team, have trained 59 cities. 
By the end of this fiscal year we will have trained a total of 65 
cities. We, the interagency team, plan to train approximately thirty-
six cities in fiscal year 2000, with the remaining 19 cities trained by 
third quarter, fiscal year 2001. A listing of the cities trained is 
included as part of my written submission. To date, we have trained 
over 16,850 first responder-trainers drawn from the firefighting 
community, law enforcement community, hazardous material handlers, 
emergency medical and management communities and the 911 operator/
dispatcher community.
    We employ the ``Train-the-Trainer'' concept in our training. There 
are several reasons for using this concept. First, the sheer numbers of 
emergency responders who have to be trained are overwhelming. Second, 
each community responds differently to various emergencies and relies 
upon its unique infrastructure to accomplish its response. Finally, 
each community generally has specific training institutions for various 
segments of its response infrastructure. Utilization of a train-the-
trainer approach, we think, institutionalizes the response material 
within the local culture. Upon completion of our training, the city 
trainers take the instructor training material and adapt it to their 
unique response structures and organizations and train their 
responders. The training program in essence, is a federal, state, and 
local partnership.
    Another important aspect of our training approach is the ``team 
teaching'' technique. This technique involves pairing a subject matter 
expert in the nuclear, biological or chemical (NBC) arena with an 
emergency responder with experience in these areas. Together the 
pairing brings a high degree of credibility to the training due to the 
extensive experience of the individuals involved. Both the train-the-
trainer approach and the team teaching approach continue to be very 
well received by our training audience and we suggest that these 
approaches continue to be used for future training of this type.
    A synopsis of each course of instruction follows:

  1. Employee Awareness (Video). Employee Awareness is a 30-minute 
    video presentation for 911 operators and diverse employees at 
    potential terrorist target facilities. The video is presented in 
    layman's terms in both English and Spanish. There is no instructor 
    requirement, however, a facilitator (provided by the facility 
    employer) is recommended to introduce the video. The video covers:

  <bullet> General aspects of NBC terrorism

  <bullet> Information on how to recognize a NBC terrorist incident 
        through signs and symptoms, and possible dissemination devices

  <bullet> Self-protection measures--Instructional materials include a 
        facilitator's guide, a pamphlet for the participants and a 911 
        checklist for future reference.

  2. Senior Officials' Workshop. The workshop is a 4.5-hour course 
    intended to instruct and inform the senior leadership of the city. 
    The interactive workshop employs video clips, case studies, lecture 
    and discussion to promote understanding amongst city officials of 
    the impacts of nuclear, biological and chemical weapons of mass 
    destruction. The workshop objectives are to:

  <bullet> Assess the potential risk to their community from NBC WMD.

  <bullet> Identify possible targets within their community.

  <bullet> Understand the implications for their community from NBC 
        WMD.

  <bullet> Interact with state and federal personnel so that 
        operational assets can be assembled, assigned and employed with 
        maximum effectiveness.

  <bullet> Identify special legal and financial considerations that NBC 
        WMD incidents may involve.

    The Senior Officials' Workshop is a stand-alone course with no 
Domestic Preparedness (DP) course prerequisites.

  3. Emergency Responder Awareness. Unlike the Employee Awareness 
    video, the Emergency Responder Awareness course (4 hours, 0.4 
    Continuing Education Units (CEU)), is designed for the trainers of 
    emergency responders. These responders include firefighters, police 
    officers and emergency medical responders. The goal of this course 
    is to enable participants to teach other responders the signs and 
    symptoms of chemical and biological agents and nuclear materials; 
    potential devices used for dissemination; make proper notification; 
    and defensive actions to safeguard themselves and their community. 
    This course covers:

  <bullet> Introduction to the NBC Terrorism Threat.

  <bullet> Radiological, Biological, and Chemical Materials and 
        Weapons.

  <bullet> Dissemination Devices

  <bullet> Responder Actions.

    Prior to enrollment in the Responder Awareness course, participants 
should be trainers and have a basic understanding of principles and 
procedures to respond to a hazardous material incident.

  4. Emergency Responder Operations. The Emergency Responder Operations 
    course (4 hours, 0.4 CEU) is designed specifically for incident 
    response teams in a defensive mode. The goal of this course is to 
    enable participants to teach the technical aspects of NBC 
    incidents, and the defensive actions required for responders to 
    protect themselves and their community. This course covers:

  <bullet> Responder Actions at the Operations Level

  <bullet> Chemical Downwind Hazard Analysis

  <bullet> Personal Protection

  <bullet> Introduction to Detection and Identification

  <bullet> Emergency Decontamination Procedures

  <bullet> Practical Exercise

    The Responder Awareness course is the prerequisite.

  5. Technician--HAZMAT. The Hazardous Materials (HAZMAT) course (12 
    hours, 1.2 CEU) is specifically designed for trainers of current 
    HAZMAT Technicians. HAZMAT Technicians learn the difference between 
    responding to NBC terrorist incidents compared to an ``everyday'' 
    HAZMAT event. The goal of this course is to enable participants to 
    teach the technical aspects of NBC incidents and the offensive 
    actions required for responders to protect themselves and their 
    community. This course covers the same subjects as the Awareness 
    and Operation courses, but at a more advanced level. In addition, 
    this course covers:

  <bullet> Responder Actions at the HAZMAT Technician Level

  <bullet> Hands-on Detection and Identification Exercise

  <bullet> NBC Agents at the HAZMAT Technician Level

  <bullet> Protective Equipment

  <bullet> Decontamination Procedures

  <bullet> Chemical Classification, Detection and Identification

  <bullet> Practical Exercise

  <bullet> Downwind Hazard Analysis

  <bullet> Dissemination Devices

    The participants should be HAZMAT technician qualified prior to 
enrollment. No DP course prerequisites are required.

  6. Technician--Emergency Medical Service. The Emergency Medical 
    Services (EMS) course (8 hours, 8.5 CEU) instructs trainers of 
    emergency medical technicians and paramedics on the unique aspects 
    of a response to a NBC terrorist event. The goal of this course is 
    to enable participants to teach the technical aspects of NBC 
    incidents and the defensive actions required by EMS responders to 
    protect themselves and their community. This course includes:

  <bullet> Introduction to NBC terrorism threat

  <bullet> Possible dissemination devices

  <bullet> Recognizing NBC exposure

  <bullet> Trends indicating possible events

  <bullet> Safe and legal antidote requirements

  <bullet> Unique triage of potential mass casualties and emergency 
        medical field treatment demands

  <bullet> Unique considerations to treat children and elderly victims 
        of an NBC, terrorist incident

    The course consists of lectures, demonstrations and field exercises 
to include personal protection measures, detection, decontamination and 
triage. No DP course prerequisites are required.

  7. Hospital Provider. The Hospital Provider course (8 hours, 7 CMEU 
    for physicians and 8.4 CEU for nurses) provides instruction to 
    trainers of emergency department physicians and nurses. The goal of 
    this course is to enable participants to teach the medical 
    technical aspects of NBC incidents and the defensive actions 
    required for responders to protect themselves and their community. 
    This course includes the same topics as the EMS course, but at a 
    more advanced level. Course covers:

  <bullet> Introduction to NBC terrorism threat

  <bullet> Diagnosis and treatment victims of an NBC incident

  <bullet> Unique public health guidelines

  <bullet> Special considerations for Hospital personnel dealing with 
        an NBC incident

  <bullet> Properly manage contaminated victims

  <bullet> Decontamination

  <bullet> Protect against cross-contamination using personal 
        protective measures

    Course format includes classroom lecture with demonstrations and 
case studies. No DP course prerequisites are required.

  8. Incident Command. This course (6 hours, 0.6 CEU) provides trainers 
    of incident commanders with the necessary information and 
    considerations to effectively manage an NBC incident. The course 
    consists of 4 hours of lecture and 2 hours of a tabletop exercise. 
    Specific topics include coordination of resources; protective 
    measures and associated risks; evacuation versus shelter-in-place 
    considerations; perimeter security measures; management of mass 
    casualties, and applications of the Federal Response Plan. The goal 
    of this course is to enable the participants to teach the 
    challenges, consequences, and special considerations of incident 
    commanders when dealing with NBC incidents. This course covers:

  <bullet> Challenges and Consequences of Management in an NBC Incident

  <bullet> Tactical Considerations and Actions for NBC Incidents

  <bullet> Understanding the Roles of the Federal Government in an NBC 
        Terrorist Incident

  <bullet> NBC Terrorism Response and Planning Exercise

    The DP Responder Awareness and Responder Operations courses are 
prerequisites for the Incident Command course or any of the Technician 
Level courses (i.e., EMS, HAZMAT, Hospital Provider).
    As a critical part of city training, exercises add to the overall 
comprehensive training process of the Domestic Preparedness program. 
Three main components comprise the exercise program as an integrated 
strategy:

  <bullet> Chemical weapons tabletop exercises

  <bullet> Chemical weapons functional exercises

  <bullet> Biological weapons tabletop exercises

Chemical Weapons Tabletop Exercise

    The chemical weapons tabletop exercise is a six to eight hour event 
conducted in a conference room environment for city, county and state 
emergency responders. Federal agency representatives also participate 
in the exercise. A chemical tabletop exercise typically follows 
emergency responder training. This exercise routinely focuses on a 
range of crisis and consequence management activities beginning with 
threat identification, through initial and secondary responses, to 
follow-on actions and long-term consequences. This exercise presents 
emergency responders with simulated emergency situations designed to 
encourage constructive discussion.
    The objectives of the chemical weapons tabletop exercise are to:

  <bullet> Assist local authorities to exercise the decision process in 
        response to a chemical weapons terrorist incident scenario.

  <bullet> Examine the response mechanism of the incident command 
        structure.

  <bullet> Capitalize, reinforce and provide feedback on the training 
        conducted by the Domestic Preparedness program.

Chemical Weapons Functional Exercise

    The chemical weapons functional exercise is a two to four-hour, 
hands-on event that normally follows six months after the Domestic 
Preparedness training of the city emergency responders. A three-day 
timeframe encompasses the actual exercise and includes:

  <bullet> Controller/evaluator training (Day 1)

  <bullet> Site setup (Day 1)

  <bullet> Actor/observer/media briefings (Day 2)

  <bullet> Two to four-hour functional exercise (Day 2)

  <bullet> Formal debriefs (Close of Day 2 and Day 3)

    This exercise is real time, and the participants include: fire, law 
enforcement hazardous materials (HAZMAT) and emergency medical services 
(EMS) units that received the Domestic Preparedness training. 
Participants must assess and act on the simulated terrorist incident 
based upon expert knowledge of these issues: response procedures, 
current plans and protocols at their respective agencies and the 
Domestic Preparedness training lessons. In this exercise, emergency 
responders treat and decontaminate simulated ``victims'' and simulate 
transporting them to area hospitals as if a real world situation 
occurred. Furthermore, the city provides controllers and evaluators for 
these exercises. Controllers ensure the city's identified objectives 
are met through key actions during the CW exercise, whereas evaluators 
assess the response as the chemical weapons functional exercise is 
executed. The objectives of the chemical weapons functional exercise 
are to:

  <bullet> Establish a learning environment.

  <bullet> Familiarize response teams and agencies with protocols to 
        respond to a chemical incident involving weapons of mass 
        destruction (WMD).

  <bullet> Acquaint emergency responders with the potential of a 
        chemical terrorist attack.

Biological Weapons Tabletop Exercise

    The biological tabletop is a one-day, six to eight-hour exercise 
conducted for the city, county and state emergency responders. Federal 
agency representatives also participate in the exercise. This exercise 
is conducted in a conference room environment where participants 
respond to a simulated terrorist incident. The biological exercise 
depicts the major functional response aspects of a biological terrorist 
incident. This exercise focuses on how to detect and mitigate a 
biological terrorist incident. Medical consequences of a biological 
terrorist attack are emphasized.
    The objectives of the biological tabletop are to:

  <bullet> Assist local authorities to exercise the decision process in 
        response to an assessment of a biological terrorist incident.

  <bullet> Examine, as a unified command, the response mechanisms of 
        the city, county and state agencies with federal support.

  <bullet> Provide feedback on the training conducted by the Domestic 
        Preparedness program.

    In previous testimony before Congress, we have cited the fact that 
the skills learned are perishable and that factors such as personnel 
turnover create a need for sustainment. There are a number of 
initiatives that have addressed this issue. One such initiative has 
resulted in the establishment at Fort McClellan of the Center for 
Domestic Preparedness (CDP) under the Department of Justice. The Deputy 
Secretary of Defense has indicated that the Department of Defense will 
act in a support role and in concert with that, we have entered into an 
agreement with the Department of Justice to provide a broad range of 
supporting services to the CDP. We view the relationship created by 
this agreement as a partnership which will aid in program continuity 
and efficiency and which will leverage on the body of effort not only 
gained in our Domestic Preparedness program activities but in our 
eighty-two years of experience and our recognition as the Army's leader 
in the chemical and biological arena.
    We are also involved in supporting the Consequence Management 
Program Integration Office (CoMPIO) through the provision of SBCCOM 
functional expertise as they establish state and regional response 
teams within the DoD Reserve Component. We are supporting the CoMPIO in 
equipping and providing logistical support to the first 10 Military 
Support Detachment (Rapid Assessment and Initial Detection (RAID)) 
Detachments and the initial 44 Military Support Detachment (RAID Light) 
Detachments, 43 Reconnaissance Elements, and 127 Domestic Response 
Casualty Decontamination Elements. We utilize performance-based 
research and development to provide ``tried, true and tested'' 
products. We utilize emerging technological applications to transition 
promising advanced technologies or rapidly develop prototype systems 
into field applications. We have leverage the defense test and 
evaluation infrastructure to conduct technical performance evaluations 
of commercially available equipment, and participate on the Interagency 
Board (IAB) to develop a list to ensure equipment standardization and 
interoperability at the local, state and federal levels. In addition we 
apply functional experts to develop and deliver training programs and 
expert technical assistance for the response teams.
    One of the fundamental components of readiness for the cities as 
they prepare for a WMD incident is equipment. As we travel the country 
in our training program and other related activities we constantly hear 
the message ``We need equipment--what good is training without 
equipment?'' We recognized the need and have provided on a loan basis 
under the Domestic Preparedness program a training equipment set with 
an approximate value of $300,000.00 to each city trained. Each loaned 
equipment training set is tailored to the unique needs of the specific 
city involved. This process however, doesn't fully address the larger 
operational requirements of the communities.
    The training equipment set includes four categories of equipment: 
protective equipment; detection equipment; decontamination equipment; 
and training aids. The training aids are delivered during the week that 
the Federal Training Team trains the city's emergency responder 
trainers. The training aids are used by the city as they train their 
responders. After the city is trained and has had an opportunity to 
assess their Domestic Preparedness requirements, the city makes an 
equipment selection and requests DOD to acquire protective, detection, 
and decontamination equipment which meets their training plans. If the 
requested equipment is approved, DOD acquires the equipment and 
provides it under the loan agreement.
    Examples of items that are found in typical Training Equipment Sets 
follows:

    Personal Protective Equipment: Level A Encapsulated Protective 
Suits; Level B Protective Suits; Respiratory Equipment; Protective 
gloves and boots.
    Detection: M256A1 Training Kits; M256A1 Test Kits; M8 Paper, Box; 
M9 Paper, Roll; Chemical vapor colorimetric sampling tubes and pump; 
Commercial Chemical Detector.
    Decontamination: M291 Decon Kit; M295 Decon Kit; Portable Showers; 
Emergency Shelters.
    Training Aids Set (contents fixed): M256 Simulator, Chemical Agent 
Detector Kit, box; Bio Detection Tickets; M28 Simulator, Detector 
Tickets, Boxes; M29 Simulator, Detector Tickets, Boxes; M18A2 Chemical 
Agent Detection Kit; M8 Paper; M9 Paper; CAMSIM (Optional); CAM 
Simulator (Optional); CWA Detector Kit (Tubes and Pumps); Mark I Nerve 
Agent Antidote Trainers; Blue Books (Med Mgt of Bio Casualties); Green 
Books (Med Mgt of Chem Casualties); Yellow Books (EMS); REAC/TS 
Transport of Radiological Materials--Q&A About Incident Response; Sets 
of 35mm Slides for the Six Courses; Sets of Instructor and Student 
Guides for the Six Courses (Master Copies); CD-ROM containing the six 
courses; Video Tapes of ``Terror at Harford Mall'' Master Copies (Beta 
or other format); Video Tapes of ``Terror at Harford Mall'' and FBI--
WMD Briefing Video, VHS; Employee Awareness Video, Master Copies (Beta 
or other format); Employee Awareness Video, VHS; Medical Courses Video, 
VHS; Preval Sprayer; Technician-HAZMAT Training Exercise Kit; 
Persistent Chemical Agent Dissemination Device; Non-Persistent Chemical 
Agent Dissemination Device; Small Vials (For Sugar and Baby Oil)

    Currently there are efforts under way within the National Domestic 
Preparedness Office (NDPO) to create a standardized equipment list 
which will meet these needs and when coupled with DOJ's grant authority 
should be able to make the process far more efficient and effective. We 
at SBCCOM would suggest however, that it is important to avail the 
communities of expertise available at SBCCOM and other federal agencies 
early in the process to aid in selecting equipment and after the 
equipment delivery ensuring that it meets the needs of the community 
and properly addresses the challenges posed in the WMD environment.
    An integral part of the domestic preparedness program is the 
testing that we are performing by the Department of Army available 
equipment, which is in general use by the emergency responders around 
the country. We subject the equipment to agent and simulant testing and 
make the performance data available to the emergency response community 
via the Domestic Preparedness Web site. We don't recommend a particular 
piece of equipment based on the test results. We simply discuss the 
test protocol utilized and list the test data that we obtain. In 
essence, we act as a kind of Underwriter's Laboratory. This type of 
information is critical to the emergency response community. Our 
efforts in this regard have been very well received by the emergency 
response community. We think that this type of testing activity should 
be continued and would strongly support the activities of DOJ as they 
address further challenges in this area while leading the National 
Domestic Preparedness Program.
    Finally, I'd like to address the status of the planned transition 
of program responsibility from the Department of Defense to the 
Department of Justice. There is an agreement, which is currently being 
worked which will outline the various aspects of the transition. It is 
anticipated that this transition will take place on 1 October of the 
year 2000 or beginning of fiscal year 2001.
    Tentative plans for the transition include the following:

  <bullet> DoD will fund and execute all aspects of the Domestic 
        Preparedness program through city number 68 of 120.

  <bullet> DoD will fund and execute training, chemical tabletop 
        exercises and Category IV equipment sets for cities 69 through 
        105.

  <bullet> DoD will fund and execute the annual Federal, State, and 
        Local exercises through fiscal year 2001.

  <bullet> DOJ will fund and execute Categories 1-3 grant money 
        distribution, chemical weapons functional exercises, and the 
        biological weapons tabletop exercise for cities 69 through 105.

  <bullet> DOJ will fund and execute all aspects of the Domestic 
        Preparedness program for cities number 106-120.

  <bullet> DoD and DOJ will jointly fund and execute the Improved 
        Response Program beginning in fiscal year 2001. The DoD focus, 
        beginning in fiscal year 2001, will be to enhance the Services' 
        response units and installation responders. DOJ will continue 
        to focus on responders at the state and local levels.

  <bullet> DOJ will be responsible for the funding and execution 
        mechanisms for the HelpLine and Hotline beginning in fiscal 
        year 2001.

  <bullet> DOJ will control the Domestic Preparedness World Wide Web 
        Page after transition.

  <bullet> DoD will be responsible for the funding and execution of the 
        Chemical Biological (CB) Response portion of the DP program.

    Regardless of the transition details one thing remains paramount--
we as a nation are faced with a serious challenge--the challenge posed 
by weapons of mass destruction. SBCCOM and its interagency partners 
have gained a lot of experience through their domestic preparedness 
activities thus far and SBCCOM desires to support the new lead agency 
in the fulfillment of their programmatic responsibilities by bringing 
to bear functional and testing expertise gained from decades of 
experience and from other preparedness related programs.
    We continue to be proud to be associated with this important 
program and look forward to supporting DOJ in their leadership role in 
the future. Thank you for this opportunity to testify before you here 
today.

                Domestic Preparedness Training Schedule

Fiscal year 1997
    1. Philadelphia; 2. Boston; 3. Detroit; 4. Chicago.
Fiscal year 1998
    5. New York City; 6. Los Angeles; 7. San Antonio; 8. Washington 
D.C.; 9. Memphis; 10. Kansas City, MO; 11. San Jose; 12. Honolulu; 13. 
Indianapolis; 14. Dallas; 15. Seattle; 16. Miami; 17. Baltimore; 18. 
Houston; 19. Atlanta; 20. San Francisco; 21. Portland; 22. 
Jacksonville; 23. Phoenix; 24. San Diego; 25. Columbus, OH; 26. 
Anchorage; 27. Denver; 28. Milwaukee; 29. New Orleans; 30. Providence; 
31. Albuquerque; 32. Saint Louis; 33. Nashville; 34. Tucson; 35. 
Charlotte.
Fiscal year 1999
    Hampton Roads Area (Cities 36-39 trained Collectively); 36. 
Virginia Beach; 37. Norfolk; 38. Chesapeake; 39. Newport News; 40. El 
Paso; 41. Sacramento; 42. Cleveland; 43. Austin; 44. Oklahoma City; 45. 
Colorado Springs; 46. Buffalo; 47. Long Beach; 48. Minneapolis; 49. 
Pittsburgh; 50. Newark; 51. Omaha; 52. Santa Ana; 53. Tulsa; 54. Fort 
Worth; 55. Raleigh; 56. Oakland; 57. Cincinnati; 58. Tampa; 59. 
Birmingham

    Since program inception fifty-nine cities have been trained through 
June 11, 1999.

    Senator Sessions. Thank you, and I appreciate your 
insightful comments, they are important, on all aspects of what 
we are dealing with.
    Butch Straub, with Office of Justice Programs, again, we 
are glad to have you here.

                 STATEMENT OF CURTIS H. STRAUB

    Mr. Straub. Thank you. Good to see you again.
    On behalf of Attorney General Reno, Assistant Attorney 
General Roy Robinson, I am pleased to be with you today to 
discuss our programs, particularly our training programs that 
are dedicated to enhancing the capability of State and local 
first responders.
    I am particularly pleased to be at Fort McClellan again 
with you. This is OJP's first responder training center, a 
premier center, the Center for Domestic Preparedness. At this 
time, Mr. Chairman, I request that my formal written statement 
be entered into the record.
    Senator Sessions. We will be glad to receive that.
    Mr. Straub. It is always terrible to go last. The two 
gentlemen at the table have taken most of my speech.
    As you have heard, OJP is working closely with both of 
these agencies. Today, however, I am pleased to tell you that 
OJP has formed an alliance with PHS----
    Senator Sessions. Public Health Service.
    Mr. Straub. Absolutely, to establish a public health 
training center here at Fort McClellan. We believe that the 
presence of the PHS center will provide excellent opportunities 
for partnership and enhanced ability for the two Federal 
agencies to serve the first responder community.
    First responder training is a critical element and perhaps 
the most important element of the OJP Program. Training 
currently available for the first responder community to 
address WMD terrorism is far from comprehensive. OJP's programs 
are designed to bridge gaps in other programs and offer new 
enhanced specialized training. OJP's training mission is 
simple--to ensure that State and local emergency response 
personnel receive the skills, knowledge, abilities to enhance 
them to respond to domestic terrorism and in turn protect 
lives, property and enhance safety and security in the 
communities.
    As OJP moves into fiscal year 2,000, we will be able to use 
needs assessments and comprehensive plans developed by the 
States themselves to identify training requirements and target 
training resources.
    As you stated, the CDP was opened June 1, 1998. Even now, 
in its initial stages of operation, the CDP has trained over 
1,000 first responders from 305 jurisdictions, 43 States in 
basic awareness, incident command and incident management.
    As you know, Mr. Chairman, Fort McClellan, which is 
currently the home of the U.S. Army Chemical School, is 
scheduled to be closed at the end of the current fiscal year. 
In directing the establishment of the CDP, I believe Congress 
saw a unique opportunity that was being provided to the 
civilian emergency response community. Simply put, facilities 
at Fort McClellan that so successfully served the Army's 
chemical training needs can now be used to benefit the training 
needs of America's civilian emergency responders. Mr. Chairman, 
the transformation of Fort McClellan from a military training 
facility to a civilian first responder training facility 
through the creation and development of the Center for Domestic 
Preparedness has the full support and commitment of the 
Attorney General and Assistant Attorney General Roy Robinson.
    Senator Sessions, I truly believe that CDP will be a 
success story, not just for the Federal Government, but for 
America's first responders.
    Mr. Chairman, I have eight letters of support that I would 
like to enter into the record, one of which is from Colorado.
    Senator Sessions. We would be pleased to receive those.
    Mr. Straub. As I conclude my statement, I want to 
personally thank you for all your support of the CDP and of all 
your support for the OJP program activities.
    That concludes my statement. I will be pleased to answer 
any questions.
    [The prepared statement of Mr. Straub and the above 
mentioned letters follow:]

                 Prepared Statement of Curtis H. Straub

    Mr. Chairman and Members of the Subcommittee: My name is Curtis H. 
Straub, and I am the Director of the Office for State and Local 
Domestic Preparedness Support (OSLDPS), Office of Justice Programs 
(OJP). On behalf of the Attorney General Reno and Assistant Attorney 
General Laurie Robinson, I am pleased to be with you today to discuss 
programs that are dedicated to enhancing the capabilities of state and 
local first responders to deal with the threat of domestic terrorism 
involving weapons of mass destruction (WMD). I am particularly pleased 
to be here at Fort McClellan, at the Office of Justice Programs' first 
responder training center, the Center for Domestic Preparedness. As you 
know, the Center for Domestic Preparedness, which is a component of the 
Office for State and Local Domestic Preparedness Support, is an 
integral part of OJP's first responder training initiative. The Center 
has successfully trained over 1,000 first responders since it opened 
June 1, 1998.
    OSLDPS Deputy Director Andy Mitchell was pleased to testify before 
this subcommittee on April 20, to discuss the full range of our 
programs, so I will limit my remarks today to aspects of our training 
initiatives.
    The standards by which OJP/OSLDPS assists state and local 
jurisdictions in accessing and acquiring training and equipment for 
emergency responder personnel will be coordinated by the Department of 
Justice's National Domestic Preparedness Office (NDPO), which has been 
proposed as an office to coordinate federal domestic preparedness 
initiatives and to serve as a single point of contact for first 
responders for information on federal preparedness programs.
    When fully operational, NDPO will act as the single federal office 
for coordinating federal initiatives on domestic preparedness into a 
cohesive and logical program that enhances the capabilities of first 
responders. As part of this mission, OJP/OSLDPS will operate under the 
umbrella of NDPO to assist state and local jurisdictions with the 
delivery of appropriate training, equipment, and exercises consistent 
with the standards coordinated by NDPO.
    Responder training, like any other learning experience, must be 
incremental, with progressive steps in the learning process. Training 
currently being offered to address readiness for WMD terrorism is far 
from comprehensive. OJP/OSLDPS programs are designed to bridge gaps in 
other programs and offer new enhanced, specialized training. OJP/OSLDPS 
will work in partnership with other federal agencies, as well as 
through the NDPO, to ensure that its programs complement other ongoing 
federal training efforts.
    OJP/OSLDPS' overall training mission is to ensure that state and 
local emergency response personnel receive the skills, knowledge, and 
abilities to enable them to respond to incidents of domestic terrorism, 
and in turn, better protect lives, property, and public safety. The 
training focuses on enhancing a jurisdiction's ability to respond to 
explosive, incendiary, chemical, radiological, nuclear and biological 
incidents. During fiscal year 1999, training efforts are being focused 
on those jurisdictions that received OJP/OSLDPS equipment grant funding 
during fiscal year 1998, and those jurisdictions targeted under OJP/
OSLDPS Metropolitan Firefighter and Emergency Medical Service Program. 
This ensures that current training builds on past efforts and that 
there is a continuity to the resources targeted to jurisdictions.
    The Metropolitan Firefighters and Emergency Medical Services 
(MFEMS) Program was begun in fiscal year 1997, and offers training and 
technical support to the fire and emergency medical services of the 
nation's largest metropolitan jurisdictions. Originally targeted to the 
nation's 120 largest jurisdictions, this program has been recently 
expanded to cover 255 jurisdictions across the country, including all 
cities targeted for training under the Defense Department's Nunn-Lugar-
Domenici Domestic Preparedness Program, and all state capitals.
    Since its inception, the MFEMS Program has been primarily 
responsible for providing basic instruction in WMD awareness to fire 
and emergency medical service personnel. The program's principal 
course, ``Emergency Response to Terrorism: Basic Concepts,'' is a two-
day training course that has, to date, trained over 32,000 fire and 
emergency medical service first responders in basic WMD awareness 
principles. In addition, over 59,000 persons are currently in the 
process of being trained.
    The Basic Concepts course is delivered in the first responders' 
local communities in order to reach the maximum numbers of first 
responders. This course is also available through a `` self-study'' 
version that has proven very successful. We are also exploring ways to 
deliver it through both ``distance learning'' mechanisms and through an 
Internet-based version. OJP/OSLDPS has also worked with the Federal 
Emergency Management Agency to ensure that this course has become part 
of the standing curriculum at all state fire training academies.
    Since fiscal year 1997, OJP/OSLDPS' responsibilities in the area of 
first responder training have significantly increased, notably with the 
passage of the ``Departments of Commerce, Justice, and State, the 
Judiciary, and Related Agencies Appropriations Acts of 1998 and 1999.'' 
During this time, we have built on the success of the MFEMS Program and 
integrated its training efforts into a comprehensive initiative to meet 
state and local first responder training needs. Key to this process is 
the use of a variety of needs assessment methods to garner information 
from state and local jurisdictions aimed at identifying training 
requirements and serving as a road map for targeting training 
resources.
    Beginning in the current fiscal year, OJP/OSLDPS will require 
states to submit a three-year comprehensive plan that will identify 
equipment, training, exercise, and other needs, which will be used to 
identify needs and target resources. The collection of this type of 
information will allow OJP/OSLDPS, working with NDPO, to determine the 
WMD training that is available, being utilized, or required by 
jurisdictions across the country. The information will assist the 
development of new training materials and courses to fill training 
gaps. This effort will be aided by NDPO's function as a central federal 
government clearinghouse for training information.
    A key element of the federal government's domestic preparedness 
initiative is OJP/OSLDPS' National Domestic Preparedness Consortium 
(NDPC). Organized as part of OJP's domestic preparedness training 
initiative in fiscal year 1998, the NDPC is providing the nation's 
first responders with specialized training specifically designed for 
responding to WMD incidents of domestic terrorism, filling existing 
training gaps, and enhancing training currently provided by FEMA, DoD, 
and other federal agencies. The specialized NDPC training will be 
delivered in three ways: on location at the Consortium facilities, 
through regional or traveling courses, and via distance learning 
technology. During fiscal year 1999, the Consortium is identifying 
training needs, developing training courses, and delivering courses to 
first responders in four major areas: awareness, responder operations, 
technician responses, and WMD incident management.
    The Consortium incorporates several of the organizations that have 
received funding under the OJP/OSLDPS' domestic preparedness initiative 
into a single, coordinated, and integrated training program. Each of 
the five NDPC members has capabilities that make it uniquely qualified 
to provide specialized WMD training.

  <bullet> The National Energetic Materials Research and Testing Center 
        at the New Mexico Institute of Mining and Technology provides 
        live explosive training and field exercises.

  <bullet> The National Center for Bio-Medical Research and Training at 
        Louisiana State University provides expertise and training in 
        biological agents and in law enforcement.

  <bullet> The National Emergency and Response and Rescue Training 
        Center at Texas A&M University provides the ability to conduct 
        field exercises and expertise and facilities for training on 
        urban search and rescue techniques, with emphasis on the fire, 
        HAZMAT, and EMS disciplines.

  <bullet> The U.S. Department of Energy's National Exercise, Test, and 
        Training Center at the Nevada Test Site provides the ability to 
        conduct large scale field exercises using a wide range of live 
        agent simulants and explosives.

  <bullet> The Office of Justice Program's Center for Domestic 
        Preparedness here at Fort McClellan provides the ability to 
        conduct training in a live chemical agent environment and to 
        conduct field exercises. The Center was opened by OJP/OSLDPS on 
        June 1, 1998, to train state and local emergency responders in 
        both basic and advanced methods of responding to, and managing, 
        incidents of domestic terrorism and has already trained nearly 
        1,000 first responders in basic awareness, incident command, 
        and incident management. OJP/OSLDPS is also working in 
        partnership with the Public Health Service (PHS) as PHS 
        establishes a public health training center for responding to 
        WMD incidents at Fort McClellan. ``OJP/OSLDPS believes that the 
        presence of the PHS center will provide excellent opportunities 
        for partnership and an enhanced ability for these two federal 
        entities to serve the first responder community.''

    The newest addition to OJP/OSLDPS domestic preparedness training 
initiative will be the assumption by OJP/OSLDPS of the Department of 
Defense's (DoD) Nunn-Lugar-Domenici Domestic Preparedness Training 
Program in fiscal year 2001. Currently DoD and the Department of 
Justice are working on a Memorandum of Understanding for the proposed 
transition of the Nunn-Lugar-Domenici program. This agreement should be 
completed later this month. During fiscal year 2000, the program 
transition will begin and will be completed by the beginning of fiscal 
year 2001. The two departments are working well together, with 
excellent cooperation from DoD, which should make the transition 
seamless, with no impact on the cities involved with the training. The 
Department of Justice is committed to completing the training in the 
120 jurisdictions originally identified by DoD. I am confident that the 
program transition will result in a much more comprehensive federal 
training program for first responders, enabling OJP/OSLDPS to integrate 
our training and other domestic preparedness assets with the Domestic 
Preparedness Program implementation. The integration will also address 
legitimate concerns regarding DOJ's and DoD's two programs having 
different target groups with different delivery mechanisms.
    Among the goals of this transition is to provide the basic Nunn-
Lugar-Domenici training elements to as many of the 120 cities 
designated by DoD as Nunn-Lugar-Domenici training sites as possible by 
the end of fiscal year 2000. Under the terms of the agreement between 
DoD and the Justice Department, DoD will complete all phases of the 
Nunn-Lugar-Domenici program for 68 of the 120 jurisdictions, and will 
complete all basic training elements for an additional 37 cities, by 
the end of fiscal year 2000. OJP/OSLDPS will initiate its 
administration of the program with the remaining 15 cities in fiscal 
year 2001. The completion of the Nunn-Lugar-Domenici exercise component 
for cities 69-120 will be accomplished by OJP/OSLDPS, beginning on a 
small scale in fiscal year 2000, followed by an accelerated rate in 
fiscal year 2001.
    In addition, OJP/OSLDPS, as part of its administration of the Nunn-
Lugar-Domenici program, is developing an enhanced Senior Officials 
Course tailored for each recipient jurisdiction. The course builds on 
the existing Senior Official courses and is part of the Nunn-Lugar-
Domenici transition. This enhanced course will dovetail with the new 
state planning and assessment process under the equipment grant program 
and will ultimately serve as a vehicle for delivering the assessment 
findings to state and local leaders. The course teaches baseline 
awareness, then walks participants through the findings of the 
jurisdictional assessment. Through this process, decision makers will 
come to fully understand the community's state of preparedness and the 
necessary steps to ameliorate shortfalls. OJP/OSLDPS will initiate the 
program with a special version intended for the first 25 cities that 
received the Nunn-Lugar-Domenici Domestic Preparedness Program train-
the-trainer courses.
    DoD's Domestic Preparedness Program training is essentially entry-
level WMD training for first responders, providing concepts and raising 
hazard awareness. Other OJP/OSLDPS training efforts and programs will 
build upon the Nunn-Lugar-Domenici base and provide the next tier in 
that process, offering more advanced learning opportunities to enhance 
the understanding, skills, and abilities of the first responder 
community, including tactical and strategic responses to WMD terrorist 
incidents. An effort is underway to evaluate and, by request of the 
first responder community, certify effective training courses. As part 
of that process, the establishment of training hierarchies will assure 
first responders that they are progressing toward greater levels of 
proficiency. NDPO will also continue DoD's compendium of existing 
federal training courses and help ensure that courses meet minimum 
national standards.
    OJP/OSLDPS is also moving to ensure that training offered to first 
responders includes the training required to use and operate the 
equipment available to them under the OJP/OSLDPS equipment grant 
programs. OJP/OSLDPS will provide jurisdictions technical training in 
handling equipment purchased with federal grants. This training is 
available upon the jurisdiction's request either through on-site 
visits, long-distance learning, or by hosting responders at training 
facilities around the country.
    Each of the 12 courses being developed will undergo a thorough 
review and critique. Comments from the review boards will then be 
incorporated into the courses and, following a final expert review, the 
courses will be certified by OSLDPS through the NDPO certification 
process. This process will help ensure that uniform, high-quality 
training is available to first responders. In addition, all training 
efforts will be enhanced through OSLDPS' technical assistance program 
and through responder participation in both table-top and field 
exercises.
    Throughout the training development process, we have attempted to 
maintain close contact with and seek comments from our first responder 
customers. In August 1998, the first State and Local Domestic 
Preparedness Stakeholders Forum was convened with participation from 
over 200 local, state and federal responders. At the conference, 
responders identified shortfalls or needs from the context of practical 
experience and offered recommended courses of action. The concerns and 
recommendations for action that emerged have provided invaluable 
guidance to planners in the development of the OSLDPS programs and to 
other federal government agencies. We intend to continue this process 
by maintaining an active feedback process, engaging with the responder 
community through efforts such as the National Domestic Preparedness 
Consortium and the NDPO's State and Local Advisory Group, which is 
proposed as a key element of NDPO's process for coordinating federal 
programs with state and local needs.
    Through the improved coordination of federal domestic preparedness 
programs that will be provided by the NDPO, OJP/OSLDPS will continue to 
provide assistance to state and local jurisdictions as a part of DOJ's 
overall effort to enhance the nation's capabilities to respond to 
events we hope will never occur.
    Mr. Chairman, that concludes my statement and I will be pleased to 
answer any questions you may have. Thank you.


[GRAPHIC] [TIFF OMITTED] T5976.001

[GRAPHIC] [TIFF OMITTED] T5976.002

[GRAPHIC] [TIFF OMITTED] T5976.003

[GRAPHIC] [TIFF OMITTED] T5976.004

[GRAPHIC] [TIFF OMITTED] T5976.005

[GRAPHIC] [TIFF OMITTED] T5976.006

[GRAPHIC] [TIFF OMITTED] T5976.007

[GRAPHIC] [TIFF OMITTED] T5976.008

[GRAPHIC] [TIFF OMITTED] T5976.009

[GRAPHIC] [TIFF OMITTED] T5976.010

[GRAPHIC] [TIFF OMITTED] T5976.011

[GRAPHIC] [TIFF OMITTED] T5976.012

    Senator Sessions. Thank you.
    It is a very fascinating area. I have oddly found myself on 
three interesting committees that deal with it. I am on the 
Health Committee and the Public Health Subcommittee, which Dr. 
Knouss is with, and on Armed Services that deals with the 
defense and Chairman Warner has spoken out and had hearings 
with the CIA Director and others about terrorist attacks and he 
is very concerned about it, and also on the Judiciary Committee 
where obviously Justice programs is. So it has given me an 
interesting insight in all those agencies.
    Mr. Parker, I do recall and appreciate very much Assistant 
Secretary Hamry, Dr. Hamry's comments, Assistant Secretary of 
Defense, second to Mr. Cohen, when he said that he believed it 
was a good idea to transition the initial responsibility you 
were given under Nunn-Lugar to the Department of Justice. In 
fact, he said he didn't think that was a core mission of the 
military to be training in every city in the country. So he 
thought it was healthy that that transition take place. And you 
have--and I believe the Department of Defense is cooperating 
fully, and it is not easy sometimes. Agencies do not like to 
give up their jurisdiction or what they have been working on. 
And I think that is a good event.
    Dr. Knouss, just briefly, the Centers for Disease Control 
is in Atlanta. Do you think they will play a significant role 
in your planning for protecting public health in case of an 
attack?
    Mr. Knouss. Senator Sessions, they play an absolutely 
critical role because, as I mentioned in the very beginning, it 
is that agency that we need to turn to for strengthening much 
of our public health infrastructure in the United States to be 
able to establish the systems necessary to detect and determine 
what agent may have been released, to create the laboratory 
capability that is necessary not only for terrorist attacks but 
also for other emerging infectious diseases, to be able to 
assist our public health departments around the country to make 
a determination of what kinds of health problems we are facing. 
And we are very actively engaged with them in a partnership 
within our department.
    CDC plays a very prominent role in disease control efforts 
and prevention efforts. But when it comes to response, the lead 
within our department will fall to our Office of Emergency 
Preparedness to coordinate that for the department. And we 
firmly believe that the capability to respond starts in the 
community and so we are committed to working with communities 
across the country to strengthen their capabilities in this 
regard and CDC is not only working with the communities but 
also the States, which is their traditional role.
    It is just that it is right down the road and I think it 
would be an asset to Nobel Army Hospital if you develop a 
training program here. And by the way, on training, I know you 
have mentioned to me, I think the last time we talked, you 
indicated again today, that you are concerned about actually 
training physicians and nurses and those in the communities. Do 
you have funding for that? And where are we as a country in 
funding money for public health training for emergencies?
    Mr. Knouss. Most of the money that we have spent up to the 
present time has been spent on developing the systems at the 
city level for the response of the health systems, and this 
year, our funding for that activity was about $3 million 
against a request that was made of $14 million. So the 
Secretary of Health and Human Services actually added another 
$11 million that she used her authority and transferred from 
other programs within the Department to augment what was 
available through the direct appropriations. And we have made a 
substantial request again for fiscal year 2000's budget so that 
we can support that activity. I think we are now requesting in 
excess of $16 million for that activity in the fiscal 2000 
budget.
    Senator Sessions. That is not a line item in last year's or 
this year's budget, is it?
    Mr. Knouss. Yes, it was $3 million actually appropriated. 
We had asked for 14, we added 11 from within the Department's 
own funds and we are asking for 16.5 to be appropriated in the 
coming--for fiscal year 2000.
    Senator Sessions. We have got a lot of extra money being 
spent on hazardous events and I believe we should make sure 
that there is an actual appropriation sufficient to help you 
train the physicians and first medical responders. I think it 
is something we need to work on. I thank you.
    Mr. Knouss. I really appreciate that a great deal.
    Senator Sessions. Mr. Parker, relative to the National 
Guard--do you have plans for where they might be trained? I had 
heard that Fort Leonard Wood, for example, really didn't have 
the capacity to do as much as might be needed. That was one 
place that had been suggested. Where are we on that?
    Mr. Parker. The overall training effort is still being 
formulated but one of the considerations, as you point out, in 
Fort Leonard Wood is the transitional state that the chemical 
school will be in over the next year, bringing on the new 
training facilities at Fort Leonard Wood is going to take some 
time. So there has been some at least discussion and plans to 
determine whether or not there is excess capacity here at Fort 
McClellan which could be called upon as the National Guard 
needs exceed the ability for Fort Wood to deal with it. So 
there is a realization that the facility is available here at 
Fort McClellan. It will be somewhat of a balance working with 
L.Z. on what are the domestic demands and then where the 
capacity exists to support DOD's uniformed personnel training.
    Senator Sessions. We have got a great National Guard in 
Alabama. Per capita, it is number one in the Nation, and I 
think fifth in total membership behind Texas and California. 
They have informed me of their interest in playing an important 
role in that, and I think that has got real possibilities. I 
think the National Guard is spread out geographically around 
most States and could play a critical role. And I thank you for 
that.
    Butch, I think we need to get to about 10,000 a year. Where 
are we in funding and what are your latest thoughts about how 
close we can come to that goal?
    Mr. Straub. I would also like to see 10,000 a year. Of 
course that has been our objective all along. In fiscal year 
2000, we requested $17 million. I don't know what the mark is 
going to be. I understand the Senate was marking up----
    Senator Sessions. It will be close to that.
    Mr. Straub. I hope so. That will put us around 2000 
trainees a year. But in our 2001 budget, OJP has requested $30 
million which would move the number of students to 6500. The 
target goal of 10,000 would take around $37 million a year, 
which is what we would like to see.
    Senator Sessions. That is a chunk of money even by 
Washington standards. But it is I think an achievable goal. 
Senator Shelby and I have talked about that figure several 
times. I think the Senate will be in at about what the 
Administration requested, hopefully we can increase it, but 
whether we can or not, I do not know. We are living with our 
commitment to the American people to contain spending, that the 
Congress and the President agreed to last year. As a result, 
funds are tight, and therefore money must come from some other 
programs that are of less priority. That is more difficult than 
I realized when I first went to Washington. Just because one 
program is more valuable or appears to be more valuable than 
another one does not mean you can easily walk over and take 
money from it to give to others. They howl quite loudly when 
you take money they have been receiving. As such, we have got 
to work on that and I intend to keep working on that.
    Do any of you have any other comments?
    [No response.]
    Senator Sessions. Mr. Parker, briefly, do you have any 
insight from the Department of Defense's and Army's perspective 
about the nature of this challenge--how real it is? I know you 
have been giving thought to it for some time now. Would you 
share that with us?
    Mr. Parker. I think the threat is a demonstrated fact, as 
it has occurred in Tokyo. The reality is that based on the FBI, 
which really has the lead in the domestic threat environment, 
is that it is very hard to quantify these things other than 
there appears to be a consensus that the environment is as you 
stated earlier, it is when, not if. That seems to be the 
consensus opinion. Very hard to identify any particular group 
or timeframe but it is one of those circumstances where the 
consequences of the event are so extreme that we as a Nation 
need to proceed and be prepared.
    Senator Sessions. Well said. The consequences are so 
extreme and all the experts tell us it is a question of when, 
not whether, and we do need to be prepared.
    I thank you for the leadership each of you have given. I 
want to be helpful. While we love the facility here, we are 
concerned about the whole Nation and we want to do what is 
right for the country. I know the President has said we need to 
shift resources to this area and I believe the Congress agrees. 
If we can work together and not allow too many different 
agencies to fail to coordinate effectively, I believe we can 
make some major progress in short order.
    Thank you very much for being with us. And I hope you can 
stay around for our tour in a little bit.
    On next panel, we have Darrell Higuchi, who is the deputy 
fire chief in Los Angeles County Fire Department. He has an 
extensive background in national disasters and domestic 
preparedness in probably the Nation's most active metropolitan 
area dealing with these issues. The Los Angeles County area has 
been talked about and I know you have done a lot of work on 
this.
    In addition, Gary McConnell is the Director of the Georgia 
Emergency Management Agency in Atlanta. Of course, he grew up 
around Rome, he was Sheriff up there when he did a lot of work. 
Now he has moved down----
    Mr. McConnell. Hard work.
    Senator Sessions. What is that?
    Mr. McConnell. Hard work.
    Senator Sessions. Hard and honest work in Rome.
    He was actively involved in planning and executing the 1996 
Olympics and was a key operator in working on the bombing 
there. He has established an office that is well-recognized 
nationally for being forward thinking and effective. And we are 
glad to have you, Gary. You're too far away from here--just 
across the line Georgia.
    Chief Higuchi, would you like to make a few comments and 
then we will have some questions.

  PANEL CONSISTING OF DARRELL HIGUCHI, DEPUTY FIRE CHIEF, LOS 
   ANGELES COUNTY, CA AND GARY McCONNELL, DIRECTOR, GEORGIA 
                  EMERGENCY MANAGEMENT AGENCY

                  STATEMENT OF DARRELL HIGUCHI

    Mr. Higuchi. Yes, sir, Mr. Chairman, good morning. I would 
like to thank you for----
    Senator Sessions. You might need to pull that microphone a 
little closer.
    Mr. Higuchi. Good morning, Mr. Chairman. Thank you for 
allowing me to testify this morning.
    Senator Sessions. And I probably need to ask you to keep 
your remarks around 5 minutes, opening remarks, if you would.
    Mr. Higuchi. Yes, sir, I will keep them brief.
    As you indicated, my name is Darrell Higuchi, I am the 
Deputy Chief of Los Angeles County Fire Department and I am 
also here before you today on behalf of the International 
Association of Fire Chiefs.
    Preparing for incidents of terrorism involving chemical, 
biological and radiological agents, in addition to incidents 
that may involve conventional explosive devices, is certainly a 
high priority for the fire service. America's fire departments 
are first responders and often the last resort for rescue, 
prehospital emergency medical care in any community in a time 
of crisis.
    Should an incident of terrorism involving weapons of mass 
destruction occur, the fire service is typically the first 
public safety agency notified, along with law enforcement. Our 
ability to successfully mitigate the incident and save lives 
will depend upon our training and preparedness.
    The Nunn-Lugar-Domenici amendment to the 1997 defense 
authorization and the Anti-Terrorism and Effective Death 
Penalty Act of 1996 began Federal efforts to assist and help 
better prepare local fire, police and emergency service 
agencies for the possibility of terrorism involved in a WMD 
incident.
    The IAFC has been involved in the development of both these 
laws and continues to work with the Departments of Defense and 
Justice in their administration. The Anti-Terrorism Act 
authorized a $5 million appropriation to train metropolitan 
fire fighters in terrorism response. Designated by the Attorney 
General to administer this law, the Office of Justice Programs, 
OJP, provided four jurisdictions with demonstration grants, and 
importantly worked with the National Fire Academy, in the 
development of awareness level training curriculum that has 
been available nationwide for approximately 2 years.
    A train-the-trainer approach was used for both cost-savings 
and an efficient way to reach as many fire fighters as 
possible. Thousands have received this training based upon this 
curriculum.
    Additionally, coordinated Federal assistance in acquiring 
appropriate personal protective, decontamination, detection and 
monitoring equipment is required. Federal support and funding 
for this training is also a necessity.
    Early identification of a terrorist incident and the 
ability to implement command and control using the standard 
incident command system is vitally important. Successfully 
mitigating an incident is incumbent upon this. Awareness level 
training is vital and should continue to be provided. Congress 
should provide sufficient funding to facilitate the 
availability and delivery of this OJP/NFA awareness level 
training to every local public safety agency in the country.
    OJP has created, at the direction of Congress, a National 
Domestic Preparedness Consortium comprised of Louisiana State 
University, the New Mexico Institute of Mining & Manufacturing, 
Texas A&M University and the Nevada Test Site. The Justice 
Department also established a National Domestic Preparedness 
Center here at Fort McClellan. We support expedited access to 
the consortium's facilities as well as as many local emergency 
services personnel as possible. It is important that each of 
the consortium facilities focus on those aspects of emergency 
operations that each can uniquely address.
    It is also essential that local emergency response agencies 
have sufficient oversight and input into the training 
development. It is important that what is being taught is not 
duplicative or contradictory and that the training meets the 
goals and objectives of preparedness.
    The lack of training standards in both Defense and Justice 
programs is a concern to some. Others will claim that no 
standards exist. We disagree. Consensus standards developed and 
promulgated by the National Fire Protection Association are the 
standards that should be adopted by all agencies involved in 
training of local fire departments. These standards are widely 
accepted and are already in use by fire training academies 
across our Nation. The awareness level training developed by 
OJP in conjunction with the National Fire Academy incorporates 
these standards. We urge Congress to mandate that all Federal 
agencies involved in training of fire fighters incorporate 
these existing NFPA standards.
    The International Association of Fire Chiefs believes that 
the enhancement of the existing local capability is the wisest, 
most cost-effective course to follow in preparing for a WMD 
incident. It is our experience that not only will we be the 
first responders on the scene, but we will be the largest 
supplier of personnel and equipment to mitigate this incident. 
Fire department hazardous material response teams deal with and 
handle spills and accidental releases of highly toxic chemicals 
on a regular basis. This is the case across the country. The 
importance of preparing for this risk should not be 
understated. However, we should not forget that bombing attacks 
remain the most common tool of terrorists, both domestically 
and abroad. We should not overlook the fact that our 
preparedness plans--and we do realize that the National 
Domestic Preparedness Consortium Program seeks to address that 
item.
    The recent rash of anthrax hoaxes in Los Angeles County 
revealed several critical items. We found that we were unable 
to determine quickly whether or not anthrax agent was actually 
present at the several incidents. Further training and 
equipment necessary to identify biological and chemical agents 
is needed for all fire departments.
    Of particular concern are those biological agents that have 
incubation periods that would expose individuals to those who 
unwittingly leave the scene and spread this disease across this 
great Nation. The ability of responding fire department 
personnel to make these decisions is crucial. The steps 
necessary to decontaminate are arduous to potential victims and 
responders alike.
    In Los Angeles during recent drills, it was determined that 
nonambulatory victims, the fire service could only handle 10 to 
20 nonambulatory victims in a given hour.
    The decontamination process in itself is challenging. 
Training in how to accomplish it quickly and effectively is 
necessary for the entire fire service.
    To conclude, Mr. Chairman, local fire, public safety agency 
personnel will be the first on the scene in an act of 
terrorism. Our ability to save lives, mitigate environmental 
damage will depend on how we are prepared and trained. Existing 
National Fire Protection Association standards should be 
incorporated into the Federal training programs for fire 
departments.
    Finally, I would like to stress that the Federal training 
programs would benefit from input and oversight by local 
civilian fire and emergency response experts.
    At this time, I would certainly like to acknowledge the 
Department of Justice, Butch Straub, for his diligence and 
administrative oversight of OJP and training, and of course the 
grants program, NDPO, the Pentagon and in particular L.Z. 
Johnson and his staff. Our department has been a direct 
beneficiary of this live agent training. Returning personnel in 
their assessment and critique was rated a 9.5 out of 10 and 
this in itself created a flood of applicants within our own 
organization. This training has now fashioned an indelible 
benchmark for live agent training for all fire service 
individuals.
    Thank you for allowing me to testify today, Mr. Chairman, 
and I am happy to answer any questions you may have.
    Senator Sessions. Thank you very much.
    Mr. McConnell.

                  STATEMENT OF GARY McCONNELL

    Mr. McConnell. Senator, I am pleased to be here on behalf 
of the National Emergency Management Association, but more than 
that on behalf of the State of Georgia.
    Let me preface my remarks this morning with some real 
issues that we must deal with. I am probably a little more of a 
realist than some of the folks that you deal with on a day-to-
day basis, Senator.
    Senator Sessions. Sheriffs are realists as a rule.
    Mr. McConnell. DA's and prosecutors are too.
    Let us talk about whether it happens or not--it is going to 
happen. I will tell you about some of the things that have 
happened in Georgia that I was involved in firsthand. But 
before I get into that, it could not have occurred without the 
support of Justice, Andy, Butch, and Roy Robinson. They have 
been tremendously supportive with terrorism especially in the 
State of Georgia.
    Centennial Park, we all watched in July 1996, with the 
explosion there, two other explosions in the City of Atlanta 
within 6 months. The secondary devices are a new phenomenon in 
this country where they planted it to kill the public safety 
responders. Just in the last year, we have had eight anthrax 
hoaxes just across the Alabama-Georgia line in Carroll County 
and Haralson County, just across from Cherokee, DeKalb, and 
Cleburne County.
    Senator Sessions. You had eight anthrax hoax threats?
    Mr. McConnell. Yes, sir. Double suicide in a school in 
Carroll County, and of course the shooting about 6 weeks ago at 
Heritage High School in Rockdale County.
    Senator with no disrespect to anybody and none certainly is 
meant, it is time that we quit talking about terrorism and 
school violence, and we do something. If the State of Georgia 
very candidly had waited on guidance to prepare for the 1996 
Olympics, we would not have lit the torch yet. Terrorism is 
real, the local first responders, the fire, EMS and law 
enforcement are certainly the first folks there.
    One group that I think has been overlooked this morning 
particularly in testimony and reality is the State. The State 
brings a tremendous amount of resources to support local 
governments. The Federal Government does a tremendous job 
supporting local and State but it is anywhere from 48 to 72 
hours, admittedly, before they can have a large force there 
unless they are prestaged like they were in the 1996 Games. And 
we do not have that luxury.
    It is very, very important in my opinion that we have 
Federal involvement, State involvement and local involvement. 
Certainly nobody is trying to take away from the local first 
responders. In 20 years as a local sheriff, I understand they 
are the folks there that do the work. But in 1996, for example, 
we brought 11,000 State officers to the 1996 Games. There has 
to be a coordinating agency out of the Governor's office who 
deals with mutual aid. If we train 120 cities that DOD is 
attempting to train across this country, without any 
involvement from the local or State as to who those are and how 
they are trained and how it is going to be distributed to the 
other cities--for example, if you train the City of Birmingham, 
that is great, but what about Roebuck, Gadsden, or Fort Payne?
    So we have to have a mechanism of delivering that training 
across the State through mutual aid. We think that the training 
delivery and the issues that the Federal Government are dealing 
with need to come through the Governor's office, to be assigned 
to whatever the appropriate State agency is to work with them. 
For example, the CDC is certainly appropriate in working with 
our Department of Human Resources in our State, but there needs 
to be a coordinated effort so that Agriculture or Justice is 
not trying to develop the same thing in their areas; to make 
sure that we use the best limited resources that we have.
    The issue of the role of each individual group, we will 
never resolve that because of turf battles or pride and ego and 
who gets credit and who gets blame. Senator, very candidly, we 
had 191 countries in Atlanta, GA in 1996, we had 137 local 
jurisdictions involved in putting on the Games, we had over 60 
Federal agencies there. What we must do is not only train on 
live biological weapons of mass destruction, school violence, 
we must go one step further past that and have an understanding 
by exercise, by an understanding of who does what. The time for 
the Federal agencies to meet their State counterparts and their 
local counterparts is not at Columbine High School.
    You know, we all want to use media releases and we all want 
to be there to arrest the perpetrators. But we have got to have 
a coordinated effort on how that is going to occur. We had the 
luxury of having 3 years to train and exercise for the 1996 
Games. That is the reason we had 130 odd victims of Centennial 
Park, but they were all in the hospitals and emergency rooms 
being treated within 28 minutes because we all understood our 
roles, we all understood how to accomplish that.
    We have got to emphasize, whether it is the fire department 
of Los Angeles or the fire department here in Anniston, that we 
all have roles to play. And if we do not understand that today, 
we certainly cannot understand it when Columbine High School or 
Heritage High School in Rockdale County is under siege.
    There is a tremendous need, I think, for the Federal 
Government to certainly continue their efforts to single focus 
terrorism through Justice or wherever the powers pick that 
agency to be. In my opinion, Justice is the place for that. But 
we do not need to reinvent the wheel. For example, there is a 
system of delivering Federal assistance to State and local 
governments now, we need to support that through FEMA. If the 
same incident would occur here in Anniston, there is a great, 
world class facility here to train the first responders on 
weapons of mass destruction and chemical and biological. Let us 
quit looking at other places, let us quit trying to build a new 
or better mousetrap and use the one that we have got. Spend 
that money on training the fire and law enforcement, EMS 
communities on the chemicals, how to deal with those and how to 
better coordinate those efforts.
    And with no disrespect to the gentleman from DOD who 
testified earlier--and I do not want to get on a negative 
comment here--but the Guard RAID teams are great, but are we 
going to have them in our life time? We have been talking about 
Guard RAID teams and Georgia has been selected for one of 
those, I understand. It was selected for one of those shortly 
after the 1996 Games or whenever the program started. During 
those 17 days in Atlanta, GA when the world was watching, we 
responded to a suspicious package every 10 minutes for 17 solid 
days. We ran our fire and EMS and law enforcement and military 
guys in the ground. Every 10 minutes 24 hours a day for 17 days 
is a long time.
    RAID teams are great, but let us move on with it. You know, 
I heard this morning we are still developing where we are going 
to train them at. Hell, I need them in Georgia now. Let us 
train them, let us train them in Anniston and if there is a 
better place 10 years down the road, let us worry about that 10 
years down the road.
    But the Governors of this country and the elected 
leadership deserve for us to not worry about who is going to 
get the credit, there is enough to go around. There will be 
enough blame to go around. When CNN stuck their camera in my 
face at 1:21 in the morning in Atlanta, GA, they did not care 
who let the bomb go off, why did we do it. They did not care 
whether it was DOD, the State of Georgia, the City of Atlanta, 
EMS, fire or the whole alphabet soup, Senator.
    We have got to move on. We may not have the ideal answer to 
it, it will always be different versions depending on what 
color shirt or what color uniform or where your loyalty lies. 
But the people in this country deserve for us to make a 
decision and for us to move on with it. The mothers and fathers 
of those six kids in Rockdale County 6 weeks ago, they wanted 
somebody to catch the shooter. They want me or somebody in the 
State of Georgia to assure them it is not going to happen again 
and be relatively sure that we can back up that promise.
    That is what we are about. We are not about whether the 
State of Georgia, the City of Atlanta, the Federal Government 
or which agency gets credit for it. We have got an obligation 
to do the right thing.
    I want to close with one thing that I asked my 11,000 folks 
to do during the Olympics, and I challenge you in Congress to 
do the same thing when you are voting on weapons of mass 
destruction and terrorism. I do not know who the most important 
person to you is in your life, but every time you deal with 
weapons of mass destruction, I want you to have that person in 
your mind. And if you and I do our jobs well enough to take 
care of that person, the rest of our people will be all right 
too. That is where we are at with terrorism in this country 
right now.
    I will be glad to answer any questions you have, sir.
    Senator Sessions. Thank you. That is well said and I think 
we are at that point.
    I was just thinking as you said you spent 3 years getting 
ready in Atlanta--would you say that virtually any city in 
America, if they have got good support from training and 
equipment, that kind of thing, over a period of 2 or 3 years 
could reach the kind of level that you did in Atlanta? 
Moreover, would you say that, every major area ought to be 
developing the kind of coordinated response and communications 
that are necessary to respond effectively?
    Mr. McConnell. Senator, my----
    Senator Sessions. Would that be your vision of what 
everybody ought to do?
    Mr. McConnell. Yes, sir. In my opinion, there is no reason 
that any city or any community in this country cannot get to 
that level. It takes about four things. It takes the political 
support of the elected leadership; it takes the vision and 
commitment of the agencies involved, it is not easy, it is not 
always popular, sir; it takes elected leadership, the agencies 
involved committed to that goal and it takes community support. 
Communities at different times in their lives are willing to 
put up with more.
    Senator Sessions. In other words, if it is the sheriff and 
the chief and the fire chief and all, if they are not getting 
support from the elected leaders, they are not likely to put a 
big effort into it, but if they are encouraged to, they will?
    Mr. McConnell. Yes, sir. And the public will put up with 
it. We put metal detectors at the majority of the venues, had a 
few complaints prior to Centennial Park. After Centennial Park, 
they did not mind being checked at all when they went in, sir.
    Senator Sessions. Yeah, good point.
    Mr. Higuchi, you mentioned the quality work that the 
National Fire Academy has done and the standards I guess, 
National Fire--what is it?
    Mr. Higuchi. National Fire Protection Association, NFPA.
    Senator Sessions. National Fire Protection Association 
standards--those have been developed over many years of careful 
consideration about how to respond to fires, chemicals, 
explosions and things of that nature. Do you feel like there 
has been enough attention paid to what has already been 
accomplished in developing these responses to chemical and 
biological weapons, and further do you think the Federal 
Government should do more in incorporating the work that has 
already been done?
    Mr. Higuchi. Yes, sir, Mr. Senator. As you indicate, there 
has been a tremendous amount of Federal support in the 
establishment of national guidelines relative to fire, EMS and 
now weapons of mass destruction. I would certainly ask and 
hopefully the Congressional members will support additional 
funding through the Department of Justice, through FEMA down to 
U.S. Fire Administration, to the National Fire Academy. I am 
proud to say that I was part of several course developments of 
weapons of mass destruction and the support that we received, 
received an A grade. Although that is not to say that we should 
be standard and happy with what we currently have, but yet, we 
find those courses and possibly develop new additional courses 
to better meet the needs of the fire service.
    Senator Sessions. If you have say a poison gas 
circumstance, what are the things that your firemen and women 
need to know as they respond to that? Do you think the average 
fire department in America has received enough assistance and 
training in how to do it?
    Mr. Higuchi. Mr. Senator, I cannot sit in front of you 
today and acknowledge yes, they have had enough training, only 
because of the fact that I have only dealt with Los Angeles 
County Fire Department and our surrounding communities. We have 
had a tremendous amount of training in the awareness area. And 
to answer your question specifically with poison gas, we have 
had training tapes developed, we have written materials and 
again, people coming to this live agent school training as well 
as the National Fire Academy, has certainly broadened our 
exposure and knowledge and expertise relative to weapons of 
mass destruction. Yet, it is one of those items that in reality 
most fire fighters hopefully never have to deal with.
    Senator Sessions. Well, most people probably do not realize 
just how intensive fire department training is using chlorine 
and all kinds of hazardous materials that are transported on 
our roads and railways and used in our cities daily. Having 
said that, what I hear you saying is to go from that to 
biological attacks may be new to you, but would not be that 
difficult, although sufficient scientific studies have not yet 
been done. In addition, what I hear you saying is that we ought 
to build on what has already been learned and the training that 
has already gone on within the fire departments.
    Mr. Higuchi. Yes, sir, that is correct. The fire service is 
built on a lot of tradition and the culture relative to 
ladders, to water systems, to fire and rescue. This is just a 
new door that has now opened and presents a challenge to the 
fire service in general and we are trying to meet that 
challenge.
    Senator Sessions. You have mentioned live agent training 
several times now. Do you think that is a critical component of 
making training realistic and meaningful to students?
    Mr. Higuchi. Yes, sir. On our written critiques and verbal 
interviews with persons that have come back, typically most 
fire departments across the Nation will use a color grenade or 
tear gas at the most during training exercises. But when 
individuals found out this was the real McCoy, they had a 
tendency to check their masks and seal 10 times more, along 
with the assistance of the personnel and staff here. And that 
in itself put a realism that has never been experienced by this 
fire service before.
    Senator Sessions. It gives them confidence that the 
procedures work, I suppose, among other things also----
    Mr. Higuchi. Yes, sir.
    Senator Sessions. Would it not, if they have been through 
an actual live agent exercise.
    Mr. Higuchi. Yes, sir, they trained as if their life 
depended on it this time versus normal training.
    Senator Sessions. Gary, I was told a few months ago--and I 
think some changes have been made--that sheriffs had not been 
fully involved in this. Police departments were being 
coordinated with in some of the national programs. Have you 
heard any complaints that sheriffs have not been involved and 
offered the training to the extent that police departments 
have?
    Mr. McConnell. Yes, sir, I sure have.
    Senator Sessions. I think they have made a change in that. 
I have expressed my concern about it, because some of my 
sheriff friends have raised it with me. A sheriff oftentimes 
will be the first one there.
    Mr. McConnell. I think your Sheriff in Tuscaloosa County is 
probably on the national board.
    Senator Sessions. Yes, he did.
    Mr. McConnell. He may have expressed that to you.
    Senator Sessions. He caught me and he does a great job. He 
is a national leader in the National Sheriffs' Association. 
That was a very valid complaint and I think the Department of 
Justice responded well to that.
    Mr. McConnell. Justice has responded very well to weapons 
of mass destruction and terrorism across the spectrum of public 
safety, even with the new players of Agriculture and some other 
folks we normally do not think of public safety. Justice needs 
to be commended for reaching out to the other groups that 
normally have not been involved in public safety.
    Senator Sessions. Good.
    Well, I want to thank all of you for coming. I hope that 
you panelists can have time after this to actually tour the 
facility. Your comments are important to me. I think this is my 
second full hearing. We have had some secret briefings from the 
CIA and Defense Intelligence that I cannot refer to, we have 
had hearings in Armed Services as to which of these issues have 
been raised. I believe we are as a Nation, beginning to 
recognize that we need to be prepared to respond effectively to 
these events that inevitably will occur.
    We are going to accept a letter from Dr. Moriarty at Auburn 
and make that part of the record. Thank you for doing that and 
for your work with this project.
    Senator Sessions. The record will be open to receive 
testimony and I may submit some follow-up questions to some of 
you who have testified.
    Our bus will be leaving out front in a few minutes and we 
would like for you to join us there.
    Thank you so much for being with us. We are adjourned.
    [Whereupon, at 10:50 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                  Additional Submission for the Record

                              ----------                              

                                                     June 11, 1999.

                      Nerve Gas Summary for GB/VX

Nerve Gas--Used in chemical warfare, any of several poison gases 
derived chiefly from phosphoric acid that weaken or paralyze the 
nervous system, especially that part of the system controlling 
respiration.

GD--Clear water color and volatile.

VX--Persist. Light brown color.

Symptons: 1. Twitching; 2. Pin pointing of the pupils; 3. Cessation of 
breathing; 4. Muscle tension; 5. Defecation; 6. Death.

How it works: Blocks the nerve junctions and effects colon esterates.

    Previous logistics for shipment of GB VX in 1972. Nerve Gas 
(liquid) was placed in steel containers welded and encased in concrete 
cubes, placed on flat cars with decon teams, security medical personnel 
in support of the shipment to Sunny Point North Carolina, placed on a 
surplus troop ship, carried out to sea and dumped into many fathoms in 
a deep trench of the Atlantic Ocean. Quality assurance of the Nerve 
Gases (liquid) is monitored periodically and found to be contained as 
dumped in 1972. Fish habitant leakage is recorded by state of the art 
systems to insure stability.
    Present proposal for shipments from Aberdeen Proving Grounds in 
Maryland to Anniston Airport by a C-12 Army Aircraft and transferred to 
a helicopter (UH-1) or a helicopter in the inventory of the army for 
delivery to the CDT Fort McClellan for use in chemical training of law 
enforcement and other elements.
    I challenge this air shipment of 1 liter of GB or VX to Fort 
McClellan for use at the CDT facility by the center for domestic 
preparedness.
    Why: 1 liter is this much of VX or GB (show 1 qt. water).

    1. Unsafe even at the most extremely remote possibility for reasons 
of plane crash, sabotage, and leakage during shipment.
    Containment during shipment is in a baker lite container. This is 
any of a series of thermosetting plastics prepared by heating phenol or 
cresol with formaldehyde and ammonia, under pressure: used for radio 
cabinets and molded plastic wares. Baker like is a trademark.

    2. If an accident occur during shipment, many people will die 
within minutes of ingestion of the VX or GB. a pinpoint amount of the 
Nerve Agent will kill instantly without protection of most clothing, 
Atropine, Topane Chloride. Everything in the downwind hazard zone will 
become contaminated.

    Recommendations:

    1. Use of simulants (hair spray, toulene, paint thinner with M-8, 
detector paper for VX and GB presents.

    2. Collateral safety and security will be maintained without 
sickness or fatalities using simulants.
                                               Cliff Bourg,
                                                      Anniston, AL.


                                <all>

</pre></body></html>
